United States
Department of   Ofﬁce of Inspector General
Agriculture
                Semiannual Report to
Ofﬁce of
Inspector
General
                Congress
No. 58
November 2007
                FY 2007 – 2nd Half
Key OIG Accomplishments in This Reporting Period
RESULTS IN KEY CATEGORIES
SUMMARY OF AUDIT ACTIVITIES
Reports Issued
 Number of Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
 Number of Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83
Management Decisions Made
 Number of Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
 Number of Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 261
Total Dollar Impact (Millions)
Of Management-Decided Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $79.6
 Questioned/Unsupported Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $59.8
 Funds To Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $19.8


SUMMARY OF INVESTIGATIVE ACTIVITIES
Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 163
Impact of Investigations
 Indictments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 353
 Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 341
 Arrests . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 952
Total Dollar Impact (Millions) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $19.7

Administrative Sanctions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87



OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2007)

1) Interagency Communications, Coordination, and Program Integration Need Improvement
   Related material can be found on pages 17-18.

2) Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed
   Related material can be found on pages 6-10 and 18-20.

3) Continuing Improvements Needed in Information Technology Security
   Related material can be found on page 16.

4) Implementation of Improper Payment Act Requirements Needs Improvement
   Related material can be found on page 20.

5) Departmental Eﬀorts and Initiatives in Homeland Security Need To Be Maintained
   Related material can be found on pages 2, 4, and 13.

6) Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
   Related material can be found on page 16.

7) USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade
   Challenge
   Related material can be found on page 17.

8) Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and
   Reduce the Cost of Fighting Fires
   Related material can be found on pages 23-24.

9) Improved Controls Needed for Food Safety Inspection Systems
   Related material can be found on pages 3.
Message From the Inspector General
I am pleased to provide the Semiannual Report to Congress for the Oﬃce of Inspector General (OIG), U.S. Department of
Agriculture (USDA), for the 6-month period that ended September 30, 2007. This report summarizes the most signiﬁcant OIG
activities during the period by our three strategic goals for FY 2004 through FY 2007, as shown below.

■   Safety, Security, and Public Health – Our investigative work saw guilty pleas in two major dogﬁghting cases—one involving
    a professional athlete—as well as a substantial prison sentence for a man who poisoned his two young children. Our audit
    work determined that the Food Safety and Inspection Service needs to modernize its control processes for egg products
    processing inspections.

■   Integrity of Beneﬁts and Entitlements Programs – Our audits disclosed the need to improve controls in several feeding
    programs, as well as areas of the farm, crop insurance, and rural development loan programs. Our investigations resulted in
    substantial sentencings and money recoveries for schemes to defraud the food stamp, farm, rural development, and market
    access programs. These cases included two instances of post-Hurricane Katrina food stamp fraud in which the individuals
    involved had claimed to live on the Mississippi Gulf Coast but actually lived elsewhere and had suﬀered no damage to their
    residences as a result of the hurricane.

■   Management of Public Resources – Our audit work found the need for further improvements in information technology
    security, accountability for actions taken on civil rights complaints, conservation easements, monitoring and oversight over
    funds provided to the 1994 Land-Grant Institutions, controls over insurance for rural housing borrowers, certain National
    Finance Center controls, and the Farm Service Agency’s identiﬁcation and reporting of improper payments in its high-
    risk program. Our inspection work found that better coordination was needed in the implementation of a departmental
    regulation on international activities and agreements. Our investigative work yielded a number of sentencings for bribery,
    embezzlement, setting wildﬁres, and counterfeiting.

During this reporting period, we conducted successful investigations and audits that led to 952 arrests, 341 convictions,
$19.7 million in recoveries and restitutions, 210 program improvement recommendations, and $79.6 million in ﬁnancial
recommendations. Among the program improvement recommendations, the Food and Nutrition Service agreed to ﬁnalize
Federal food stamp regulations pertaining to disaster assistance, and Civil Rights agreed to develop a detailed formal plan to
process equal employment opportunity complaints timely and eﬀectively.

These monetary and program improvement results would not have been possible without the strong commitment on the part
of former Secretary Johanns, Acting Secretary Conner, and the Congress to improve USDA programs and operations. Their
continuing interest, support, and trust are vital to our success.




Phyllis K. Fong
Inspector General
Contents

Safety, Security, and Public Health . . . . . . . . . . . . . . . . . . . . 1

Integrity of Beneﬁts and Entitlements Programs . . . . . . . . . . 6

Management of Public Resources . . . . . . . . . . . . . . . . . . . 15

Gauging the Impact of the OIG . . . . . . . . . . . . . . . . . . . . . 25

Abbreviations of Organizations . . . . . . . . . . . . . . . . . . . . . 42
                                                                 Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:                                                      1 during this reporting period and a total of four during
                                                                           the full ﬁscal year. OIG’s investigations under Goal 1
                                                                           yielded 165 indictments, 221 convictions, and $579,680
Support USDA in the enhancement of safety                                  in monetary results during this reporting period and a
and security measures to protect USDA and                                  total of 177 indictments, 233 convictions, and about $1.2
agricultural resources and in related public                               million in monetary results during the full ﬁscal year.
health concerns
                                                                           EXAMPLES OF AUDIT AND INVESTIGATIVE
To help USDA and the American people meet critical                         WORK FOR GOAL 1
challenges in safety, security, and public health, it is our
responsibility in OIG to provide independent, professional
audits, inspections, and investigations in these areas. Our                Professional Athlete’s Dogﬁghting Ring
work addresses such issues as the ongoing challenges of                    Broken Up in Virginia
agricultural inspection activities, safety of the food supply,
and homeland security.                                                     In July and August 2007, four individuals, including
                                                                           a professional athlete, pled guilty in Federal court to
In the second half of ﬁscal year (FY) 2007, we devoted                     conspiracy to travel in interstate commerce in aid of
17.7 percent of our total audit and investigative resources                unlawful activities and to sponsor a dog in an animal-
to Goal 1, with 99.5 percent of these resources assigned                   ﬁghting venture that took place on the grounds of the
to critical/high impact work. A total of 84.8 percent of                   professional athlete’s home in Surry, Virginia, from 2001 to
our audit recommendations under Goal 1 resulted in                         2007. Located on the grounds were structures speciﬁcally
management decision within 1 year, and 65 percent of our                   designed for breeding, housing, and ﬁghting dogs. In
investigative cases had criminal, civil, or administrative                 addition, 66 dogs, including 53 pit bulls, as well as 13
action taken. OIG issued one audit report under Goal                       other dogs of mixed breeds believed to be pets, were seized




      Management Challenges Addressed Under Goal 1

      ■      Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 2 and 3)

      ■      Continuing Improvements Needed in Information Technology (IT) Security (also under Goal 3)

      ■      Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained

      ■      USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade
             Challenge (also under Goal 3)

      ■      Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and
             Reduce the Cost of Fighting Fires (also under Goal 3)

      ■      Improved Controls Needed for Food Safety Inspection Systems




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half       1
                                                                                Goal 1




 by State authorities when they executed a search warrant on                             Emergency Response Program (ERP) Update
 the property. The U.S. Attorney’s Oﬃce pursued Federal
 court actions to seize and forfeit the 53 pit bulls from the                            OIG continues to enhance the capabilities of both the
 State to assume custody for evidence. The 13 other dogs                                 Emergency Response Team (ERT) and the Wildland Fire
 were nonﬁghting breeds, and were not part of the seizure                                Investigations Team (WFIT), which are part of the OIG ERP.
 order issued by Federal court. Sentencing is pending on all                             These two teams have unique missions. The ERT responds
 four individuals. This investigation was conducted jointly                              to and investigates threats or attacks against the Nation’s
 with the Surry County Sheriﬀ’s Oﬃce and the Virginia                                    food supply, agriculture infrastructure, or USDA interests,
 State Police.                                                                           and also provides expertise to government agencies at all
                                                                                         levels. The WFIT conducts statutorily required independent
                                                                                         investigations of any Forest Service (FS) ﬁreﬁghter deaths
 Investigation of Multi-State Dogﬁghting                                                 caused by wildﬁre entrapment or burnover, and reports to
 Enterprise Yields Currency, Illegal Drugs, and                                          Congress and the Secretary of Agriculture on the results of
 Firearms in “Operation Bite Back”                                                       such investigations.
 An OIG investigation of an underground dogﬁghting
                                                                                         Activities enhancing the capabilities of these teams included
 and gambling organization operating in Ohio, Kentucky,
                                                                                         hands-on training exercises that transpired during this
 and Michigan resulted in the ﬁling of charges against
                                                                                         reporting period. In one exercise, the ERT participated in a
 56 individuals, 44 of whom have pled guilty to charges
                                                                                         forensic dig to recover the corpse of a decomposing pig. The
 involving violations of State and Federal laws prohibiting
                                                                                         purpose was to enhance skills for dealing with the possible
 dogﬁghting, possession of ﬁrearms, gambling, food stamp
                                                                                         biological hazards of a decomposing animal while eﬀectively
 traﬃcking, and interstate transportation of stolen vehicles.
                                                                                         recovering evidence. The ERT also participated in a full-
 Electronic Beneﬁts Transfer (EBT) fraud, wagering, sale
                                                                                         ﬁeld exercise with the Federal Bureau of Investigation’s
 and use of narcotics, illegal ﬁrearms, and the sale of stolen
                                                                                         (FBI) Hazardous Materials Response Unit, that dealt with
 property were observed during the dogﬁghts. Search warrants
                                                                                         an intentional release of foot-and-mouth disease.
 resulted in the seizure of pit bulls, U.S. currency, marijuana,
 cocaine, ﬁrearms, a bulletproof vest with a ski mask, and a
                                                                                         Our newly appointed WFIT members attended the Basic
 warehouse full of dogﬁghting equipment and blood-stained
                                                                                         Wildland Fire Academy in Boise, Idaho, which is the only
 ﬁghting pits. The investigation was conducted jointly with
                                                                                         academy in the country to use live ﬁre exercises for training.
 the Ohio Organized Crime Investigations Commission
                                                                                         Other experienced WFIT members took advanced courses in
 (OOCIC). There are currently two fugitives outstanding in
                                                                                         Crew Boss Training, Incident Commander Type 4 Training,
 this case. The investigation is ongoing.
                                                                                         and Followership to Leadership Training. Such training




These shelters for ﬁghting dogs were found during the investigation in Surry,            WFIT members took part in a live ﬁre training exercise. OIG photo.
Virginia. OIG photo.




    2     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                                Goal 1




better prepares team members to fulﬁll their responsibilities            FSIS Needs To Modernize Its Control
safely and securely when investigating an FS ﬁreﬁghter
                                                                         Processes for Egg Products Processing
death caused by wildﬁre entrapment or burnover.
                                                                         Inspections
                                                                         Since 1995, FSIS has administered USDA’s responsibilities
Georgia Father Sentenced to 60 Months of                                 under the Egg Products Inspection Act of 1970. However, we
Imprisonment for Poisoning His Children                                  found that FSIS has not yet integrated this area of operations
A Stockbridge, Georgia, man was sentenced to 60 months                   into its overall management control structure, including the
of imprisonment and 36 months of supervised release in                   science-based Hazard Analysis and Critical Control Point
April 2007 after having pled guilty in Federal court for                 (HACCP) program and the automated Performance-Based
food tampering in February 2007. On three occasions,                     Inspection System (PBIS). FSIS increasingly depends on
the man claimed that his two young children had been                     PBIS and other automated systems to provide safeguards
harmed by eating contaminated soup. The younger child,                   and oversight of its meat and poultry inspection operations.
18 months old, had to be airlifted to an Atlanta hospital                However, these automated systems cannot be extended
for critical care. A sample of the soup submitted to a Food              to egg processing inspections until a system of electronic
and Drug Administration (FDA) laboratory for analysis                    records is established to record inspection data for this area,
tested positive for Prozac and other anti-depressants. The               raising concerns about potential adulteration of processed
investigation revealed that the father was responsible for               products. We also found that although FSIS noted
contaminating the soup. As part of the sentencing, the                   deﬁciencies in Canadian egg products processing plants in
judge ordered the man to have no contact with his children.              2003, agency oﬃcials did not visit such plants when they
This investigation was conducted jointly with USDA’s Food                reviewed Canadian meat and poultry establishments in
Safety and Inspection Service (FSIS); the Clayton County,                2005, reducing assurance that these problems have been
Georgia, Police Department; and the FDA.                                 corrected.

                                                                         FSIS is developing a proposed rule that would require
Two Texas Companies Sentenced and Fined                                  egg products processing plants to develop and implement
for Misbranding Meat Products                                            HACCP systems. In addition, in response to our
                                                                         recommendations, FSIS agreed to develop a new IT
In April 2007, two closely held and related Texas companies
                                                                         system to track domestic inspection activities, including
pled guilty in Federal court and were sentenced to 12
                                                                         egg products processing, which will replace PBIS. FSIS
months of probation and ordered to pay $10,250 in ﬁnes
                                                                         also agreed to conduct trend analyses to identify serious or
for misbranding meat products. One of the companies sold
                                                                         widespread deﬁciencies at egg products processing plants
adulterated meat products to a retail store in New Mexico.
                                                                         and correct them. Finally, FSIS included egg products
Additionally, portions of the invoices failed to properly
                                                                         processing plants in the May 2007 Canadian equivalency
and consistently identify the meat products as being from
                                                                         review and agreed to include egg products processing plants
cattle more than 30 months old at time of slaughter. This
                                                                         in future reviews. (Audit Report No. 24601-8-Ch, Egg
information is required to be disclosed because of bovine
                                                                         Products Processing Inspection)
spongiform encephalopathy (BSE, or “mad cow disease”)
concerns. No adulterated meat reached consumers.




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half         3
                                                          Goal 1



    GOVERNMENT-WIDE ACTIVITIES – GOAL 1

    Review of Legislation, Regulations, Directives, and Memoranda

    ■   Draft Environmental Impact Statement and Request for Comments Regarding Organisms and Products Altered
        or Produced Through Genetic Engineering (GE). OIG reviewed and commented on regulatory revisions being
        considered by the Animal and Plant Health Inspection Service (APHIS) regarding organisms and products
        altered or produced through genetic engineering. OIG commented that APHIS should set forth in the statement
        its authority to conduct onsite inspections and other monitoring duties and that APHIS should indicate
        directly or by reference its authority to impose penalties and sanctions for a permit holder’s noncompliance
        with the permit requirements. OIG also noted that there appears to be some uncertainty as to the scope of the
        proposed multi-tiered permitting system; speciﬁcally, whether it will include genetically engineered animals
        and insects that fall under the purview of the Plant Protection Act of 2000. We believe that APHIS needs to
        include such genetically engineered organisms under the proposed permitting system to ensure consistency in
        APHIS’ regulatory processes across the spectrum of these genetically engineered organisms.

    ■   The Assistant Inspector General for Investigations participated in meetings to discuss the impact that the
        proposed “Combat Illegal Logging Act of 2007” would have on Federal agencies tasked with its enforcement.
        The act would halt the trade of illegal timber and timber products, and would expand the Lacey Act, which
        currently regulates trade in ﬁsh, wildlife, and plants. The meetings were chaired by the White House Council
        on Environmental Quality. This legislation is pending.

    Participation on Committees, Working Groups, and Task Forces

    ■   An OIG Special Agent-in-Charge is a member of the Executive Committee for the third annual International
        Symposium on Agro-Terrorism, scheduled for April 2008 in Kansas City, Missouri. The 12-member Executive
        Committee includes personnel from law enforcement organizations, Federal and State agriculture-related
        agencies, and private agriculture groups. The Executive Committee plans the agenda; identiﬁes and contacts
        guest speakers and presenters; forms subcommittees; and takes care of other logistics. This symposium brings
        together attendees and presenters from around the world to meet, discuss, and prepare for agro-terrorism-
        related issues. The two prior symposiums drew 1,200 attendees and 70 speakers/presenters, including
        representatives of USDA OIG.

    ■   An OIG investigator is serving on the Maryland Agriculture Working Group, sponsored by the FBI’s Weapons
        of Mass Destruction coordinator for the Baltimore Division. The group consists of law enforcement, emergency
        management, and public safety oﬃcials from Federal, State, and local governments within the FBI’s Baltimore
        investigative jurisdiction (Maryland and Delaware). The group is writing a communications plan to assist in
        coordinating and responding locally to a food and/or agriculture event of signiﬁcance.

    ■   In August 2007, OIG Investigations participated in Emergency Support Function–13, Public Safety and
        Security, on an on-call basis in response to Hurricane Dean. Emergency Support Function–13 provides a
        mechanism to support State and local authorities’ incident management requirements, including force
        protection, security planning, and technical assistance for public safety in pre-incident and post-incident
        situations.

    ■   OIG investigators participated on the Avian Inﬂuenza Task Group, consisting of members from USDA,
        the U.S. Department of Homeland Security (DHS), and the U.S. Department of the Interior. This group’s
        ongoing responsibility is to address action items in the National Avian Inﬂuenza Implementation Plan.

    ■   An OIG investigator is assigned to the FBI’s National Joint Terrorism Task Force (NJTTF). The agent attends
        the NJTTF threat brieﬁngs and provides a variety of products related to terrorist intelligence to OIG and
        other agencies and oﬃces within the Department. OIG investigators nationwide are assigned to the FBI’s local
        Joint Terrorism Task Forces (JTTFs). OIG’s participation on the JTTFs has provided an excellent conduit
        for sharing critical law enforcement intelligence and has served to help broaden the knowledge of the FBI
        and other law enforcement agencies about conducting criminal investigations with a nexus to the food and
        agriculture sector.




4   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                            Goal 1




ONGOING AND PLANNED REVIEWS FOR GOAL 1

Topics that will be covered in ongoing or planned reviews under Goal 1 include:

■     risk-based inspection (FSIS),

■     FSIS’ processes for handling meat and poultry recalls,

■     FSIS oversight of meat and poultry imports,

■     controls over animal import centers (APHIS),

■     Food Emergency Response Network (FSIS),

■     implementation of PBIS enhancements for speciﬁed-risk materials (SRM) violations and improved inspection controls
      over SRMs (FSIS),

■     APHIS – inspection of breeders,

■     APHIS monitoring of adverse reporting,

■     team inspections/vacancy rates (FSIS),

■     FSIS food defense veriﬁcation procedures,

■     oversight of the National Organic Program (Agricultural Marketing Service (AMS)),

■     impact of Investigative and Enforcement Services on APHIS programs,

■     controls over the detection of foreign animal diseases (APHIS),

■     Plant Protection and Quarantine program (APHIS),

■     safeguards over hazardous materials used for the control of pests (APHIS),

■     followup for APHIS licensing of animal exhibitors,

■     BSE maintenance sampling – phase IV (APHIS),

■     implementation of ﬂood control dams rehabilitation (Natural Resources Conservation Service (NRCS)),

■     followup on prior ﬁreﬁghter safety audits (FS),

■     USDA controls over genetically engineered animals and insects (Agricultural Research Service (ARS), Cooperative State
      Research, Education, and Extension Service (CSREES), and APHIS), and

■     rural critical-access hospitals (Rural Housing Service (RHS)).



The ﬁndings and recommendations from these efforts will be covered in future semiannual reports as the relevant audits,
inspections, and investigations are completed.




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half        5
                                                                Goal 2




Integrity of Beneﬁts and Entitlements Programs


OIG Strategic Goal 2:                                                    full ﬁscal year. OIG investigations under Goal 2 yielded 179
                                                                         indictments, 102 convictions, and about $18.5 million in
                                                                         monetary results during the reporting period and a total of
Reduce program vulnerabilities and enhance
                                                                         283 indictments, 176 convictions, and about $60 million
integrity in the delivery of beneﬁts to individuals
                                                                         in monetary results during the full ﬁscal year.
OIG conducts audits, inspections, and investigations
to ensure or restore integrity in the various beneﬁt and
                                                                         EXAMPLES OF AUDIT AND INVESTIGATIVE WORK
entitlement programs of USDA, including a variety of
                                                                         FOR GOAL 2
programs that provide payments directly and indirectly
to individuals or entities. The size of these programs is                Oversight of Disaster Food Stamp Programs
daunting: the Food Stamp Program (FSP) alone accounts                    (DFSP) Needs Improvement
for nearly $32 billion in beneﬁts annually, while over $20
billion annually is spent on USDA farm programs. Their                   We found that Louisiana, Mississippi, and Texas did not
intended beneﬁciaries include the working poor, hurricane                have DFSP plans in place that met all requirements of
and other disaster victims, and schoolchildren, as well as               the Food Stamp Act and the Food and Nutrition Service
farmers and producers. These programs support nutrition,                 (FNS) handbook after the 2005 hurricanes. FNS, through
farm production, and rural development.                                  the participating State agencies, quickly provided nutrition
                                                                         assistance beneﬁts to millions of disaster victims; however,
In the second half of FY 2007, we devoted 42.7 percent                   we noted some areas needing improvement. Because food
of our total audit and investigative resources to Goal 2,                stamp regulations relating to disaster assistance have not
with 88.4 percent of these resources assigned to critical/               been ﬁnalized and do not provide speciﬁc requirements for
high-impact work. A total of 73.1 percent of our audit                   DFSP plans, States considered the FNS handbook to be
recommendations under Goal 2 resulted in management                      guidance and not mandatory and, therefore, did not ensure
decision within 1 year, and 79.8 percent of our investigative            that their plans included the components listed in the
cases had criminal, civil, or administrative action taken.               handbook. The plans lacked such key components as fraud
OIG issued 12 audit reports under Goal 2 during this                     prevention plans. In addition, all three States had control
reporting period and a total of 25 audit reports during the              weaknesses in processing applications for DFSP beneﬁts.




      MANAGEMENT CHALLENGES ADDRESSED UNDER GOAL 2

      ■    Interagency Communications, Coordination, and Program Integration Need Improvement (also under
           Goals 1 and 3)
      ■    Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed (also
           under Goal 3)




  6    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                                Goal 2




FNS agreed to ﬁnalize Federal food stamp regulations                     Mississippi Woman and Housemate Ordered
pertaining to disaster assistance to specify State agency
                                                                         To Repay More Than $26,000 in Hurricane
responsibilities for developing, testing, and implementing
                                                                         Katrina Fraud Scheme
disaster assistance programs; develop and implement
procedures detailing how FNS regional oﬃces will review                  A Canton, Mississippi, woman and a housemate were
State DFSP plans and determine their adequacy; and                       sentenced for making false claims to FNS for EBT food
require States to test their disaster systems used to process            stamps and to the Federal Emergency Management Agency
applications to ensure controls are in place for properly                (FEMA) for alleging home damage from Hurricane
processing applications. (Audit Report No. 27099-49-                     Katrina. The woman and her housemate, both food stamp
Te, DFSP for Hurricanes Katrina and Rita – Louisiana,                    recipients, claimed to live on the Mississippi Gulf Coast
Mississippi, and Texas)                                                  but actually lived elsewhere and had suﬀered no damage
                                                                         to their residence as a result of Hurricane Katrina. In June
                                                                         2007, the woman was sentenced in U.S. District Court for
Five Individuals Ordered To Pay $900,000 in
                                                                         the Southern District of Mississippi to serve 3 months in
Restitution for EBT Fraud                                                prison, followed by 36 months of probation, and ordered
In April and May 2007, ﬁve individuals were sentenced in                 to pay $24,052 in restitution. In April 2007, the housemate
Federal court in the District of New Jersey to pay $900,000              was sentenced to 36 months of probation and 40 hours
in restitution for their role in discounting EBT beneﬁts for             of community service, and ordered to pay $2,358 in
cash at a Trenton, New Jersey, grocery store. From October               restitution. This investigation was conducted jointly with
2003 to April 2005, the ﬁve were involved in a food stamp                DHS OIG.
beneﬁt traﬃcking scheme involving approximately $1
million in fraud. Four were ordered to pay $200,000 each
                                                                         Hurricane Katrina Investigation Results in
in restitution and the other $100,000. Two were sentenced
                                                                         Guilty Pleas for Two Mississippi Residents
to terms ranging from 15 to 18 months, another received 6
months of home conﬁnement to be followed by probation,                   Two central Mississippi food stamp recipients were sentenced
and the remaining two received probation. This investigation             in U.S. District Court, Southern District of Mississippi, for
was conducted jointly with the U.S. Secret Service.                      food stamp fraud. They had made false statements to FEMA
                                                                         by certifying that their home was located on the Mississippi
                                                                         Gulf Coast and destroyed by Hurricane Katrina, when it was
Owner of Manhattan Grocery Store Ordered
                                                                         actually located 3 hours north in Canton and suﬀered no
To Pay $1.5 Million for Food Stamp Fraud                                 damage. The ﬁrst individual was sentenced to 36 months of
The owner of a Manhattan grocery store was sentenced in                  probation and 40 hours of community service, and ordered
April 2007 to serve 60 months in prison and 36 months                    to pay $2,000 in restitution. The second was sentenced to 36
of probation, and was ordered to pay restitution of $1.5                 months of probation and 40 hours of community service,
million for his role in discounting approximately $3 million             and ordered to pay $8,112 in restitution. This investigation
in food stamps for cash. The individual has been a fugitive              was conducted jointly with DHS OIG.
from justice and had to be extradited from the Dominican
Republic. OIG conducted this investigation in the late
                                                                         Joint Investigation Results in Extending
1990s. After the owner was arrested and released on bail,
                                                                         Sentence for Repeat Offender of Food Stamp
he ﬂed to the Dominican Republic. The U.S. Marshals
                                                                         Fraud
Service obtained an extradition order, arrested the owner in
the Dominican Republic, and returned him to the United                   In June 2007, a former upstate New York grocery store
States to face charges.                                                  owner was sentenced to serve 30 months in prison and
                                                                         36 months of probation, and ordered to pay $330,074 in




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half       7
                                                                Goal 2




restitution for redeeming more than $1 million in illegal                compromising the vendors’ bidding process by releasing the
electronic food stamp beneﬁts since 2005. The former store               consumption factor (rate at which products are consumed
owner is presently serving a 33-month prison sentence                    by participants) of products, which allowed vendors to
from a March 1999 conviction in Federal court for money                  calculate bid prices and thereby increase overall food costs.
laundering and food stamp traﬃcking in a food stamp                      These weaknesses are also included in the CAP. (Audit
fraud case in Ohio. Before his sentencing in the 1999 case,              Report No. 27004-4-At, WIC in Puerto Rico)
the former store owner ﬂed Ohio and, in 2002, became the
owner of a grocery store in New York. The judge ordered
                                                                         Three California Summer Food Service
the sentences to run consecutively—amounting to a total of
                                                                         Program (SFSP) Sponsors Did Not Ensure
63 months. This investigation was conducted jointly with
                                                                         Food Safety and Effective Program
the Internal Revenue Service and the Syracuse, New York,
Police Department.
                                                                         Administration
                                                                         FNS’ SFSP provides breakfast and lunch to children in low-
                                                                         income areas when they are not enrolled in school. SFSP is
Puerto Rico Needs To Improve Controls
                                                                         operated by sponsors that are administered by the respective
Over Vendor Management Operations in the
                                                                         State Departments of Education. We reviewed four private
Special Supplemental Nutrition Program for
                                                                         nonproﬁt sponsors in California and Nevada participating
Women, Infants, and Children (WIC)                                       in the program in 2006. We found no reportable issues in
In the last 3 years, the Food and Nutrition Service (FNS)                Nevada. In California, the State agency generally carried
identiﬁed 38 management weaknesses or areas of regulatory                out its responsibilities but needed to improve sponsor
noncompliance in the Puerto Rico Health Department’s                     oversight.
(PRHD) administration of WIC. We found that, despite
problems and delays in PRHD’s response to these weaknesses,              We found that three California sponsors’ administration of
FNS had not invoked its statutory authority to withhold                  SFSP resulted in unsafe food handling and storage; they
nutrition service administration funds when satisfactory                 did not ensure that food was refrigerated at the temperature
corrective steps had not been taken. FNS had sanctioned                  required for food safety. The sponsors also submitted
PRHD previously, but not during this time period. FNS                    unallowable, inaccurate, and unsupported claims for
oﬃcials stated that continual personnel changes in PRHD                  reimbursement to FNS, resulting in questionable payments
management delayed the implementation of corrective                      totaling $53,635.
action. In response to the audit, FNS has required PRHD
                                                                         FNS agreed to instruct the State agency to (1) revise its
to develop a corrective action plan (CAP) with timeframes
                                                                         procedures to better ensure compliance with safe food
for correcting all unresolved identiﬁed program weaknesses.
                                                                         handling, (2) bill the three sponsors for $53,635 in
The CAP also requires that a full-time or equivalent
                                                                         overpayments, and (3) coordinate with FNS to determine
administrator at the State level be assigned to the program.
                                                                         whether the most deﬁcient sponsor should be terminated
We also identiﬁed several control weaknesses related to                  from program participation if it did not take immediate
PRHD’s management of vendor operations that PRHD did                     corrective action. (Audit Report No. 27099-34-SF, SFSP in
not correct, despite the issues being cited in management                California and Nevada)
evaluations or other FNS technical assistance and oversight
eﬀorts. The regulatory violations included: (1) not fully                EBT Processor’s System Created Account
reconciling food instruments issued to participants                      Imbalances and Excessive Refunds
since FY 2000; (2) not conducting required compliance
investigations; (3) permitting the use by vendors of in-store            We found that the largest EBT processor for food stamps
credits; (4) not removing from its program the 33 products               used a standard system conﬁguration that did not include
that failed to meet Federal nutritional requirements; and (5)            a process to track unapplied beneﬁts over time. (Unapplied




  8    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                               Goal 2




beneﬁts are created when refunds are posted to a household’s            We also reviewed 33 common ownership transfers (quota
account but no corresponding beneﬁt record exists in the                holders can transfer a quota from one to another of their
grant ﬁle.) As a result, State agencies may not be able to              own tracts on the same farm) of ﬂue-cured tobacco quotas.
perform required reconciliations and validate the ﬁscal                 We found three cases in which a software problem led to
integrity of the EBT system. In addition, the processor’s               incorrect base quota levels for TTPP purposes, causing two
method of handling refunds could lead to excessive numbers              TTPP contracts to be overstated by a combined $26,992
of such transactions and the misuse of Food Stamp Program               and one contract to be understated by $2,828. FSA agreed
(FSP) funds. In New York, 16 FSP recipients received 737                to review the three transfers in question, correct the base-
fraudulent and 287 potentially fraudulent refunds during                quota-level data, and recompute the TTPP contracts. (Audit
FYs 2005 and 2006, totaling nearly $100,000. In California,             Report No. 03601-12-At, TTPP/Quota Holder Payments
FSP recipients received 217 potentially fraudulent refunds              and Flue-Cured Tobacco Quotas)
during FYs 2006 and 2007 for more than $23,000. This
audit was a continuation of our eﬀorts to monitor EBT
                                                                        Missouri Bank President and Wife Plead
operations for the FSP nationwide.
                                                                        Guilty to Defrauding FSA
FNS agreed with our recommendations to require the                      After pleading guilty to theft and bank fraud charges, a
States to work with the processor to strengthen controls                Missouri bank president was sentenced in Federal court
over unapplied beneﬁts and balancing accounts on the EBT                in August 2007 to serve 27 months in prison followed by
system, and implement controls to limit excessive refunds.              60 months of probation, and ordered to pay $315,413
(Audit Report No. 27099-69-Hy, JPMorgan Electronic                      in restitution. He was also barred from having any future
Financial Services’ Oversight of EBT Operations)                        employment with a bank. Similarly charged, his wife was
                                                                        sentenced to serve 4 months of home conﬁnement, followed
Questionable Quota Holder Payments in the                               by 60 months probation, and ordered to pay $81,985
Tobacco Transition Payment Program (TTPP)                               in restitution. From October 2001 to August 2004, the
                                                                        couple had provided false information in order to obtain
The TTPP provides annual transitional payments (funded                  a loan from the husband’s bank, as well as a loan from
through assessments) beginning in FY 2005 for 10 years                  FSA, totaling approximately $274,700. The bank president
to eligible tobacco quota holders (landowners of farms to               also pled guilty to providing false information to another
which tobacco quota was assigned) and producers of quota                ﬁnancial institution in an attempt to obtain other personal
tobacco. During FYs 2005 and 2006, the Farm Service                     loans. This investigation was conducted jointly with the
Agency (FSA) issued $1.3 billion in TTPP payments to                    FBI and the Federal Deposit Insurance Corporation OIG.
eligible tobacco quota holders. We concluded that FSA
generally had adequate controls. We reviewed 318 payments
to TTPP quota holders other than the quota holders of                   Oklahoma Financial Institution Agrees To Pay
record in the TTPP, and questioned payments totaling                    More Than $1.4 Million in Civil Settlement for
$438,711 for 17 cases in which acceptable documentation                 Inﬂating Interest Rates on FSA-Guaranteed
of claimed quota ownership was not on ﬁle. FSA agreed to                Loans
(1) spot-check changes in quota holders to ensure ownership             In May 2007, an Oklahoma ﬁnancial institution entered
changes are supported by acceptable documentation or                    into a settlement agreement with the U.S. Attorney’s Oﬃce
placed in dispute (unpaid) until such documentation                     for the Western District of Oklahoma and agreed to pay
is provided and (2) review the questioned payments and                  $1.41 million. The OIG investigation revealed that, from
recover any portions of that amount that FSA determines                 1995 to 2001, the ﬁnancial institution charged interest
were issued to other than eligible quota holders.                       rates that were not comparable for guaranteed loans versus
                                                                        non-guaranteed loans. It was concluded that all of the




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half       9
                                                                    Goal 2




selected guaranteed loan borrowers were charged a variable                   While we did not make any formal recommendations, we
rate of “prime + 3 percent,” with one exception of “prime                    suggested that RMA remind AIPs and their crop insurance
+ 2 percent.” However, for those loans where it could be                     agents and loss adjusters that they need to take appropriate
determined how the interest rate was calculated by the                       actions to ensure that their policyholders have followed good
ﬁnancial institution, the non-guaranteed loan rates were                     farming practices with respect to ASR and documented
either ﬁxed or variable at a rate of “prime + 1 percent” or less.            whatever precautions the policyholders may have taken
                                                                             before the AIPs can approve and issue indemnities for any
                                                                             loss claims resulting from ASR. (Audit Report No. 05099-
Producer Sentenced to Prison in Conversion
                                                                             113-KC, ASR)
Investigation
In March 2007, a producer in Illinois was sentenced to serve
                                                                             $500,000 Restitution and 5-Year Debarment
15 months in prison, followed by 36 months of probation,
and ordered to pay $198,629 in restitution for conversion
                                                                             for Former North Texas Crop Insurance Agent
of mortgaged property. The OIG investigation disclosed
                                                                             and His Associates
that in the spring of 2002 the producer had converted corn                   A former north Texas crop insurance agent and his associates
that was secured as collateral for a $251,550 FSA loan. The                  entered into a settlement agreement in May 2007 with the
producer sold, for his own use, approximately 129,000                        U.S. Attorney’s Oﬃce for the Northern District of Texas.
bushels of corn pledged as security for the FSA loan.                        They agreed to pay $500,000 in restitution and accepted
                                                                             a 60-month debarment from all USDA programs. The
                                                                             OIG investigation revealed that the former agent and his
Management Controls Generally Were in
                                                                             associates knowingly made false claims and statements to
Place To Process Future Losses Attributed to
                                                                             USDA relating to their 1999 cotton and grain sorghum
Asian Soybean Rust (ASR)
                                                                             farm program and indemnity payments. This civil action
OIG determined that although the Risk Management                             followed the related criminal prosecution and the November
Agency (RMA) provided suﬃcient guidance and instruction                      2004 conviction of a producer who submitted false claims
to approved insurance providers (AIP), AIPs did not require                  to USDA.
their crop insurance agents to inform producers of disease
control measures and RMA’s procedures for documenting
                                                                             Insurance Company Supervisor and Adjuster
attempts to control ASR. RMA had issued a memorandum
in 2005 requiring AIPs to inform producers that they could
                                                                             Guilty of Crop Insurance Fraud
be ineligible for indemnities if they do not document their                  In May 2007, an insurance company adjuster was
attempts to prevent and control ASR outbreaks. RMA                           sentenced to serve 24 months of probation and ordered to
recommended that producers document ASR damages to                           pay $240,301 in restitution for his part in a crop insurance
receive indemnities in order to facilitate the process. In                   fraud scheme. His supervisor had been sentenced in Federal
response, the AIPs mailed out copies of the memorandum                       court earlier in 2007 to serve 5 months in prison, home
accompanied with pamphlets about ASR and crop insurance                      detention, and supervised release, and ordered to pay
to producers. However, of 30 judgmentally selected insured                   $240,301 in restitution. The supervisor had misrepresented
producers, 9 had not received any information concerning                     a Virginia producer’s tomato production records and
ASR through their crop insurance agents or AIPs. We                          documents, resulting in the producer illegally receiving
attribute this to crop insurance agents not following up                     $308,573 in Federal crop insurance indemnity payments
with producers to ensure that they understood RMA’s terms                    for purported losses on tomatoes. The supervisor backdated
for coverage. AIPs suggested, but did not require, that their                forms to ensure that the producer’s planting dates met those
crop insurance agents discuss ASR with insured producers.                    approved by RMA, and recorded false production totals to
                                                                             ensure that the producer would realize a loss. The adjuster




  10     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                                  Goal 2




made false statements by signing production worksheets to                  Lender’s Origination and Servicing Did Not
make it appear that he had visited the producer’s ﬁelds when
                                                                           Comply With Rural Development’s (RD)
he had not. The producer was not aware of the actions taken
                                                                           Requirements
by the supervisor and the adjuster to get the claim paid.
                                                                           We audited a $5.4 million loan guaranteed by RD’s
                                                                           Mississippi State oﬃce at the request of the agency. RD was
Louisiana Producer Ordered To Pay More
                                                                           concerned because the lender had disbursed approximately
Than $300,000 to FSA and RMA for False                                     half the loan funds although not a single unit of the proposed
Statements and Money Laundering                                            90-unit project had been constructed. We found that before
In June 2007, an Oak Grove, Louisiana, producer was                        RD issued the guarantee, the lender failed to ensure that the
sentenced in the Western District of Louisiana to serve 16                 project’s contractor had the required experience and that
months in prison, followed by 60 months of supervised                      the borrower had the ﬁnancial capacity to undertake the
release, and ordered to pay restitution of $200,000 to FSA                 project. Also, the lender did not obtain RD’s concurrence
and $102,072 to RMA. The producer had been charged in                      with the project’s plans and speciﬁcations and did not
2006 with making false statements, mail fraud, conversion                  ensure that RD’s guarantee was in place before starting
of mortgaged property, and money laundering. In April                      construction. After construction began, RD issued the
2002, the producer applied for a $200,000 FSA farm-                        guarantee, but the lender failed to (1) have an independent
operating loan and falsely stated on the application that she              inspector review ongoing construction and (2) maintain
did not have crop insurance. During the OIG investigation,                 documentation to support expenses claimed on the request
it was further disclosed that the producer falsely reported her            for loan funds. We concluded that the lender’s failure to
2002 sweet potato crop planting, submitted false claims to                 originate and service the loan in accordance with direction
RMA, illegally received $102,072 in indemnity payments,                    provided by RD provided suﬃcient grounds for the agency
and did not apply any of the proceeds to her loan.                         to recover all funds expended toward the guarantee. RD
                                                                           agreed to (1) recover $2,369,110 from the lender, including
                                                                           any applicable interest, fees, or any other subsequent
Two Georgia Producers Sentenced for Crop
                                                                           payments that are made; (2) refer the administrative record
Insurance Fraud
                                                                           to its Suspension and Debarment Oﬃcial for action against
In August 2007, two tobacco producers each were                            the lender; and (3) closely monitor the remaining section
sentenced in the Southern District of Georgia to 48 months                 538 loans in the lender’s portfolio. (Audit Report No.
of probation and ﬁned $80,000 after having pled guilty in                  04601-9-SF, Lender’s Origination and Servicing of a Loan
March 2007 to misprision of a felony. The two producers                    – Mississippi)
paid a combined $739,000 in restitution before entering
their guilty pleas. One was also ordered to resign from
                                                                           Bribery Scheme Involved RD Foreclosure
the Georgia Tobacco Growers Association and the Flue
                                                                           Sales
Cured Tobacco Stabilization Board in North Carolina.
The producers conspired with another individual to grow                    Based on information brought to OIG’s attention by a
their crops in his name because the “nominee” producer                     Government employee, an auctioneer and three investors
had a higher production yield, which resulted in larger                    were sentenced for crimes related to an attempt to bribe the
crop insurance payments between 2000 and 2004. In June                     employee with $13,000. The employee made OIG aware of
2006, the producers were charged with conspiracy, false                    the oﬀer, cooperated in the investigation, and accepted the
statements to RMA and FSA, and money laundering. The                       money under OIG control. The bribes were paid to further
“nominee” cooperated in the investigation and received a                   a scheme to defraud RD and misrepresent actual sales prices
pretrial diversion.                                                        of USDA-ﬁnanced homes that the auctioneer sold and the
                                                                           investors purchased at a public auction. In May 2007,




                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half         11
                                                              Goal 2




in the United States District Court, Eastern District of               Settlement Agreement Recovers $200,000 in
Washington, the auctioneer was sentenced to 36 months of
                                                                       Misused Contract Monies
probation and 300 hours of community service, ordered to
pay a $15,000 ﬁne, forfeited the $3,000 bribery payment,               The Director of the U.S. Meat Export Federation (USMEF)
and was debarred from participating in foreclosure sales of            in Seoul, South Korea, misused approximately $200,000
Government properties. In October 2006, one investor was               in Market Access Program funds provided by the Foreign
sentenced to serve 720 hours of community service and                  Agricultural Service (FAS). The Director also awarded
ordered to pay a $90,000 ﬁne, and forfeited his $10,000                contracts funded by FAS and USMEF to a public relations
bribery payment. In March 2007, another investor was                   company that he and his wife owned and operated. The
sentenced to 12 months of probation, ordered to pay a                  former Director and most of the witnesses live in South
$10,000 ﬁne, and similarly debarred. Sentencing is pending             Korea and could not be compelled to testify in U.S.
for the remaining investor.                                            Federal court. However, the Director was separated from
                                                                       employment with the USMEF. In addition, a settlement
                                                                       agreement was reached between FAS and USMEF whereby
                                                                       USMEF will remit $200,000 to FAS. This investigation was
                                                                       conducted jointly with the FBI.




  12     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                               Goal 2




GOVERNMENTWIDE ACTIVITIES – GOAL 2

Review of Legislation, Regulations, Directives, and Memoranda

■   Violent Crime and Anti-Terrorism Act of 2007. OIG reviewed the U.S. Department of Justice’s (DOJ) proposed legislation
    entitled the “Violent Crime and Anti-Terrorism Act of 2007.” Section 311(g) of the act proposed to create a new section in
    the United States Code, 18 U.S.C. § 988, authorizing the summary forfeiture of contraband. OIG expressed concern that
    the deﬁnition of “contraband” was written broadly enough to include cash or other items of value exchanged for food stamp
    beneﬁts. However, pursuant to 7 U.S.C. § 2024(g), such cash and items are already subject to forfeiture in accordance with
    regulations promulgated by the Secretary of Agriculture at 7 C.F.R. § 271.5. OIG suggested, therefore, that a technical or
    clarifying amendment might be necessary, if the intent of the proposal is to supersede 7 U.S.C. § 2024(g).

Participation on Committees, Working Groups, and Task Forces

■   In response to the devastation in the Gulf Coast caused by Hurricanes Katrina, Rita, and Wilma, the President’s Council
    on Integrity and Eﬃciency (PCIE) Homeland Security Roundtable created a Disaster Recovery Working Group, now
    entering its third year. USDA OIG and 17 other Inspectors General have been meeting on a quarterly basis to discuss their
    experiences in auditing and investigating hurricane recovery eﬀorts. Topics covered, in addition to the ongoing work, include
    coordination between Departments, data-sharing to prevent duplicate assistance, contracting issues, preparation for future
    disasters, and overall lessons learned.

■   OIG continues to work with the PCIE/Executive Council on Integrity and Eﬃciency (ECIE) and DHS working groups in
    Washington, D.C., Mississippi, and Louisiana to coordinate eﬀorts related to Hurricanes Katrina and Rita investigations,
    disaster recovery, and information sharing. Most of our cases are worked jointly with the DHS and Department of Housing
    and Urban Development OIGs to determine the validity of disaster claims. The claims in those cases revealed that food
    stamp recipients used their EBT cards in eligible retail stores located other than on the Gulf Coast, thus establishing that
    their claims were fraudulent. (See related information under Goal 3 working groups/task forces.)

■   OIG investigators are participating on a task force to investigate criminal violations related to stolen infant formula and WIC
    throughout the Southeastern States. Other members include the FDA, local police departments, and security staﬀs working
    for large retail businesses. Infant formula generally is stolen from the retailers, repackaged, and sold to other retail vendors
    or sent out of the country. The initiative has resulted in approximately 20 criminal convictions. The task force is expected to
    continue through FY 2008.

■   OIG investigators are participating on a task force to investigate criminal violations of FSP and WIC. Members include
    the Michigan State Police and the Internal Revenue Service’s Criminal Investigation organization. The FBI and DHS’
    Immigration and Customs Enforcement have provided assistance during warrant operations. The initiative has resulted in
    12 arrests and 10 search warrants served in the Detroit metropolitan area. Forfeiture action has been initiated by the United
    States Attorney’s Oﬃce, Eastern District of Michigan. The task force is expected to continue through FY 2008.

■   An OIG investigator has been working with the FBI’s Safe Streets Task Force in Indianapolis, Indiana, since 2000. The
    mission of the task force is to deter street gang and drug-related violence, as well as seek the most signiﬁcant fugitives wanted
    for crimes of violence through long-term, proactive, and coordinated teams of Federal, State, and local law enforcement
    oﬃcers and prosecutors.

■   An OIG investigator is participating on the Ohio Organized Crime Investigations Commission (OOCIC) Task Force
    in Dayton, Ohio. OOCIC provides assistance to local law enforcement agencies in the investigation of organized
    criminal activity. OIG investigators have participated in the OOCIC Dayton Task Force since 1996 and have conducted
    investigations involving welfare recipients, food stamp traﬃcking, mortgaged farm equipment stolen from farmers, stolen
    property traﬃcking, and dogﬁghting. OIG involvement with the taskforce has resulted in the successful prosecution of
    more than 145 individuals with a number of additional cases pending. This has resulted in hundreds of charges for crimes
    such as Racketeer Inﬂuenced and Corrupt Organization Act (RICO) violations, auto theft, breaking and entering, narcotics
    traﬃcking, felonious assault, weapons violations, illegal gambling, food stamp traﬃcking, money laundering, conspiracy,
    dogﬁghting, and other criminal violations.

                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half        13
                                                                Goal 2




 ONGOING AND PLANNED REVIEWS FOR GOAL 2

 Topics that will be covered in ongoing or planned reviews under Goal 2 include:

 ■    continued monitoring of EBT implementation (FNS),

 ■    SFSP Georgia (FNS),

 ■    the Child and Adult Care Food Program (FNS),

 ■    WIC vendor monitoring (FNS),

 ■    TTPP (i.e., Tobacco Buyout Program) funding assessments and tobacco producer payments (FSA),

 ■    guaranteed farm loan program interest rates and interest assistance (FSA),

 ■    implementation of adjusted gross income limitation (FSA and NRCS),

 ■    effectiveness of status reviews in assessing producer compliance with conservation provisions (NRCS and FSA),

 ■    crop loss and quality adjustments for aﬂatoxin-infected corn (FSA and RMA),

 ■    commodity programs for peanuts (FSA),

 ■    effectiveness of new comprehensive compliance system (FSA),

 ■    price discovery efforts for various crops reported nationwide (National Agricultural Statistics Service),

 ■    oversight of AIPs’ quality control reviews (RMA),

 ■    Pasture, Rangeland, and Forage Loss Program (RMA),

 ■    citrus indemnity payments resulting from 2005 hurricanes (RMA),

 ■    catastrophic risk protection program (RMA),

 ■    implementation of $500,000 claim decision process (RMA),

 ■    Farm and Ranch Lands Protection Program – nationwide selected nongovernmental organizations (NRCS),

 ■    controls over lender activities in the Single-Family Housing (SFH) Guaranteed Loan Program (RHS),

 ■    RHS bond ﬁnancing – guaranteed loans,

 ■    RD – rural area designations,

 ■    Rural Business-Cooperative Service (RBS) – Intermediary Re-Lending Program,

 ■    Business and Industry (B&I) guaranteed lenders with guaranteed loans in default (RBS),

 ■    origination practices for the SFH Section 502 Direct Loan Program (RHS),

 ■    RHS construction costs, and

 ■    Texas Community Connect Grants close-out audit (Rural Utilities Service (RUS)).

 The ﬁndings and recommendations from these efforts will be covered in future semiannual reports as the relevant audits,
 inspections, and investigations are completed.




14   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                                 Goal 3




Management of Public Resources

                                                                          on IT to eﬃciently and eﬀectively deliver its programs and
OIG Strategic Goal 3:                                                     provide meaningful and reliable ﬁnancial reporting. One of
                                                                          the more signiﬁcant dangers USDA faces is a cyberattack on
                                                                          its IT infrastructure, whether by terrorists seeking to destroy
Increase the efﬁciency and effectiveness with                             unique databases or criminals seeking economic gains.
which USDA manages and employs public
assets and resources, including physical and                              In the second half of FY 2007, we devoted 39.6 percent
information resources                                                     of our total audit and investigative resources to Goal 3,
                                                                          with 96.7 percent of these resources assigned to critical/
OIG conducts audits, inspections, and investigations that                 high-impact work. A total of 86.8 percent of our audit
focus on, for example, improved ﬁnancial management                       recommendations under Goal 3 resulted in management
and accountability, information technology (IT) security                  decision within 1 year, and 54.2 percent of our investigative
and management, protection of public assets, employee                     cases had criminal, civil, or administrative action taken.
corruption, natural resources, research, and the Government               OIG issued 10 audit reports under Goal 3 during this
Performance and Results Act. Our work in this area is vital               reporting period and a total of 32 audit reports during the
because the Department is entrusted with $128 billion in                  full ﬁscal year. OIG investigations under Goal 3 yielded
public resources annually and hundreds of billions of dollars             9 indictments, 18 convictions, and about $571,926 in
more in ﬁxed assets such as 192 million acres of national                 monetary results during the reporting period and a total
forests and wetlands. The eﬀectiveness and eﬃciency with                  of 64 indictments, 33 convictions, and about $2 million in
which USDA manages its assets are critical. USDA depends                  monetary results during the full ﬁscal year.




      Management Challenges Addressed Under Goal 3


      ■      Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1 and 2)

      ■      Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed (also under Goal 2)

      ■      Continuing Improvements Needed in Information Technology Security (also under Goal 1)

      ■      Implementation of Improper Payment Act Requirements Needs Improvement

      ■      Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment

      ■      USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade
             Challenge (also under Goal 1)

      ■      Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and
             Reduce the Cost of Fighting Fires (also under Goal 1)




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half          15
                                                                   Goal 3




EXAMPLES OF AUDIT AND INVESTIGATIVE WORK                                    CR uses its web-based Civil Rights Enterprise System
FOR GOAL 3                                                                  (CRES) to track its cases, and to complete and ﬁle required
                                                                            EEOC reports. However, CR implemented CRES without
                                                                            suﬃcient business rules (protocols in the system to prevent
Information Technology (IT) Security                                        omissions of data by end users) to ensure the accuracy and
Improvements Have Been Made, but More                                       suﬃciency of the complaint data, and did not implement
Are Needed for an Effective Departmental                                    suﬃcient controls to validate the data. CR also had
Security Plan                                                               inadequate controls over its ﬁle room operations to ensure
Our review determined that the Department has                               that physical case ﬁles can be located timely and that they
improved its IT security oversight in several areas during                  contain the required documentation.
the ﬁscal year. For example, the inventory of agency
systems had signiﬁcantly improved. In other areas, such                     CR agreed to develop a detailed formal plan to process EEO
as the certiﬁcation and accreditation (C&A) process,                        complaints timely and eﬀectively; fully implement, test,
improvements were noted, but additional work is still                       and apply business rules in CRES, and validate the accuracy
needed. A continuing material IT control weakness exists                    of information entered; implement procedures to control
within the Department, however, due to the lack of an                       and monitor case ﬁle documentation and organization;
eﬀective overall Departmentwide plan.                                       and identify and destroy unneeded closed documentary
                                                                            case ﬁles. (Audit Report No. 60601-4-Hy, Review of the
The Department needs to coordinate with all of its agencies,                USDA’s Accountability for Actions Taken on Civil Rights
determine the overall risks, prioritize those risks, and develop            Complaints)
and implement a time-phased plan to systematically mitigate
identiﬁed risks. With agency cooperation and acceptance,
                                                                            New Mexico Man Convicted of Attempted
improvements could be achieved in compliance with
                                                                            Bribery of Colorado FS Employee
required standards, plan of action and milestones reporting,
risk-level characterization, C&A processes, Privacy Act                     In July 2007, a man was sentenced in the District of New
implementation and encryption, and conﬁguration                             Mexico to serve 36 months in prison, followed by 36 months
management. (Audit Report No. 50501-11-FM, FY 2007                          of probation, for attempted bribery. The man oﬀered a
Federal Information Security Management Act Report)                         bribe to an FS employee in Colorado if the employee would
                                                                            alter his oﬃcial engineering report to show that a ski lift in
                                                                            New Mexico was in need of replacement, even though it
Civil Rights’ (CR) Oversight of USDA’s                                      was structurally sound. The man was attempting to obtain
Accountability for Actions Taken on Civil                                   a $200,000 to $400,000 ﬁnder’s fee from a ski lift company
Rights Complaints Needs Improvement                                         to build a new multimillion-dollar ski lift. The man oﬀered
Despite improvements, we found that CR (recently renamed                    money, a car, and the use of his upscale home if the employee
the Oﬃce of Adjudication and Compliance) has not been                       would change his oﬃcial engineering report.
tracking equal employment opportunity (EEO) complaints
eﬀectively and processing them on time, and material
                                                                            Former FS Employee Sentenced to Prison for
weaknesses persist in CR’s management control structure
                                                                            Intentionally Setting Wildﬁres
and environment. Consequently, CR is continuing to miss
Equal Employment Opportunity Commission (EEOC)                              In June 2007, a former FS employee of 34 years, who served
required timeframes.                                                        as a Fire Management Oﬃcer assigned to the Mogollon
                                                                            Ranger District on the Coconino National Forest in
                                                                            Arizona, was sentenced in Federal court to serve 24 months




  16     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                                Goal 3




in prison, followed by 36 months of supervised release,                  to producers to authorize the farm subsidy payments.)
ﬁned $5,000, and ordered to pay $10,390 in restitution.                  However, FSA allowed two producers with cropping rights
The former employee, who also participated in the recovery               letters to receive subsidy payments in FY 2002 totaling
eﬀorts with the New York Fire Department following the                   $74,972.
attacks on the World Trade Center in New York City on
September 11, 2001, was responsible for setting several                  NRCS has scheduled December 2007 to train ﬁeld oﬃce
wildﬁres on National Forest System lands. The employee                   staﬀ in California on notifying FSA of recorded easements.
confessed to starting two wildﬁres in 2004 (the Mother Fire              FSA agreed to instruct its California State oﬃce to remove
and the Boondock Fire), both located on the Coconino                     the crop bases from the WRP and EWP Program easements
National Forest. He voluntarily retired in December 2005.                cited above and recover the improper payments, as well as
                                                                         those from the two producers with cropping rights letters.
                                                                         FSA also agreed to instruct all other FSA State oﬃces to
More Than 580 Arrested During Operation                                  determine whether crop bases were properly removed
Talon in Tennessee                                                       from easement lands and recover any improper payments.
OIG began Operation Talon in 1997 to locate and apprehend                Finally, FSA agreed to review cropping rights letters after
fugitives, many of them violent oﬀenders, who are current                FY 2001 to determine whether improper payments were
or former food stamp recipients. As of September 30, 2007,               made and to recover any found. (Audit Report No. 50099-
Operation Talon had resulted in 11,780 arrests of fugitive               11-SF, Crop Bases on Lands With Conservation Easements
felons during joint OIG-State and local law enforcement                  in California)
operations. During this reporting period, OIG combined
forces with Federal, State, and local law enforcement
agencies to arrest 584 fugitives in Tennessee and 21 in Texas
                                                                         Trade Adjustment Assistance (TAA) for
for oﬀenses including murder, assault, burglary, assorted                Farmers Program Has Effective Control
drug charges, robbery, fraud, forgery, driving under the                 Systems
inﬂuence, rape, sex oﬀenses, and general larceny—for a                   We concluded that FAS, in conjunction with CSREES
total of 605 arrests.                                                    and FSA, implemented the TAA for Farmers Program in
                                                                         accordance with the authorizing legislation. In addition, we
                                                                         found that FAS implemented eﬀective controls to ensure
NRCS Needs To Inform FSA of Its
                                                                         that program eligibility requirements were met. The Trade
Conservation Easements So FSA Can Remove                                 Act of 2002 had established the TAA for Farmers Program
Crop Bases From Easement-Encumbered                                      for FYs 2003 through 2007 with an annual appropriation
Lands                                                                    of $90 million. FAS administers this program to provide
Our audit found that NRCS did not communicate easement                   technical assistance and cash beneﬁts to eligible producers
information to FSA, which systemically aﬀected FSA’s                     of raw agricultural commodities when increases in imports
ability to avoid making improper payments on easement-                   of like or directly competitive commodities contributed
encumbered land. As a result, FSA did not remove crop bases              signiﬁcantly to a decline in prices. CSREES provided
from 33 Wetlands Reserve Program (WRP) and Emergency                     technical assistance training to producers, and FSA
Watershed Protection (EWP) Program easements, resulting                  administered the cash beneﬁt payments. Cash beneﬁts were
in improper farm subsidy payments totaling $1,290,147.                   provided to only 8,324 producers from FYs 2004 through
In addition, the 2002 Farm Bill disallowed the practice                  2006. Program participation had been estimated to exceed
that enabled producers to continue to receive farm subsidy               11,000 producers in FY 2004 and was expected to increase
payments in the year their easement closed. (This practice               in the subsequent years. No recommendations were
had been authorized previously by the 1996 Farm Bill;                    made. (Audit Report No. 50601-3-Hy, TAA for Farmers
FSA used the “cropping rights letters” issued by NRCS                    Program)




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half       17
                                                                Goal 3




Better Coordination Needed To Effectively                                Cooperative State Research, Education,
Implement Departmental Regulation on                                     and Extension Service (CSREES) Needs To
International Activities and Agreements of                               Improve its Monitoring and Oversight Over
USDA Agencies                                                            Funds Provided to the 1994 Tribal Land-Grant
We found that greater coordination and communication are
                                                                         Institutions (LGI)
needed to eﬀectively implement Departmental Regulation                   We found that CSREES could improve its monitoring
(DR) 1051-002 – International Activities and Agreements                  of the 1994 LGIs by prioritizing onsite visits to the
of USDA Agencies, particularly between FAS and FS. The                   institutions, better assessing program accomplishments and
failure of FAS and FS to communicate and coordinate                      verifying expenses during onsite reviews, and establishing
eﬀorts may result in an inconsistent message being sent                  a followup process to ensure observed deﬁciencies are
on international policy matters, further undermining the                 corrected. In addition, CSREES had not closed out 33
purpose and eﬀective implementation of the DR. The                       grants to LGIs with remaining balances totaling $874,986
DR was issued to ensure that a uniform message was                       that had expired as of October 1, 2004. We also identiﬁed
presented by USDA in the international arena, consistent                 $76,359 in ineligible or unsupported expenses during our
with U.S. policy goals. Several USDA agencies may enter                  visit to two LGIs, which received more than $1.5 million
into international agreements and engage in international                from CSREES for FYs 2003 through 2005. Oﬃcials at the
activities. FAS coordinates all international activities and             two LGIs made various errors allocating salaries to projects,
agreements, as well as agricultural policies and programs,               charging expenditures to grants that should have been
that come out of USDA.                                                   closed out, or using funds for purposes outside the grant
                                                                         agreement.
FAS agreed to (1) provide guidelines on types of contracting
and activities that must be coordinated with FAS, along                  CSREES agreed to (1) prioritize its onsite visits to LGIs
with the appropriate contact(s) in FAS; and (2) clarify                  through a risk assessment process, (2) review grants
in the guidelines whether FAS needs to be notiﬁed of                     program accomplishments and expenses during onsite
modiﬁcations to existing international agreements. FS                    visits, (3) establish a followup process for resolution of
agreed to (1) communicate with FAS on cost-reimbursable                  review ﬁndings and recommendations, (4) ensure all grants
agreements, including modiﬁcations to inter-agency                       are closed 90 days after the grant expires and return the
agreements, or request a waiver under the provisions of                  $874,986 in expired grant funds to the U.S. Treasury, and
the DR; and (2) follow the DR and submit a draft of its                  (5) recover from the two LGIs $76,359 in questioned or
international agreements before the start of negotiations                unsupported costs. (Audit Report No. 13011-3-At, Review
or as early as possible in the negotiating process to receive            of 1994 Tribal LGIs)
an FAS determination of whether the draft agreement is
subject to the Case-Zablocki Act. (Inspection Report No.
50901-01-IR, DR 1051-002 – International Activities and                  RD Did Not Follow Revised Force-Placed
Agreements of USDA Agencies)                                             Insurance Regulation

                                                                         Our audit disclosed that RD oﬃcials force-placed insurance
                                                                         coverage for SFH borrowers in amounts above the unpaid
                                                                         loan balance for the 2006-2007 contract year, even though
                                                                         doing so exceeded permissible amounts established by
                                                                         regulation as revised on January 1, 2006. The coverage
                                                                         is obtained by RD on behalf of uninsured borrowers on
                                                                         property used as collateral, and charged as escrow. Based




  18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                               Goal 3




on our testing of data and procedures for the 2005-2006                 Man Sentenced for Manufacturing/
contract year and the fact that RD did not change its
                                                                        Possession of Counterfeit USDA Identiﬁcation
procedures when the revised regulation came into eﬀect,
                                                                        Documents
this would have resulted in borrowers paying millions of
dollars in extra hazard insurance premiums for the 2006-                In May 2007, an Illinois man was sentenced in Federal court
2007 contract year.                                                     to serve 60 months in prison, followed by 60 months of
                                                                        supervised release, and ordered to pay $26,129 in restitution
In addition, we were unable to determine whether RD                     for possession of counterfeit Government identiﬁcation
borrowers met minimum balance requirements for force-                   badges. He had been arrested by the Cairo, Illinois, Police
placing insurance ($7,500 or $15,000 depending on the                   Department in September 2005 and found to possess
type of housing situation), because RD’s two threshold                  hundreds of counterfeit identiﬁcation cards, including
procedures were inconsistent and unclear. As a result, a                two APHIS Veterinary Service photo identiﬁcation cards.
signiﬁcant number of borrowers who would meet the                       The Cairo Police Department also found an identiﬁcation-
threshold requirements under one procedure would not                    making machine and related paraphernalia. This
necessarily meet the requirements under the other. Further,             investigation was conducted jointly with the FBI.
RD applied the threshold requirement only to borrowers
new to force-placed insurance, but neither procedure made
that distinction.
                                                                        Certain Ofﬁce of the Chief Financial Ofﬁcer
                                                                        (OCFO)/National Finance Center (NFC)
We also found that RD’s force-placed insurance contractor
                                                                        Controls Not Operating Effectively
incorrectly calculated borrower premiums on hazard and                  OCFO/NFC received unqualiﬁed opinions on its
ﬂood insurance, resulting in overcharges of $31,856. In                 description of general controls and the design of its general
response to our audit, RD oﬃcials implemented new                       control structure. However, OCFO/NFC received a
controls to increase the monitoring of contract charges, and            qualiﬁed opinion on its operational eﬀectiveness because
the contractor reimbursed RD for the overcharges. (Audit                controls were not operating eﬀectively to ensure that certain
Report No. 04099-139-KC, RD’s SFH Force-Placed                          access, awareness and training, audit and accountability,
Insurance)                                                              conﬁguration management, contingency planning, and
                                                                        personnel security controls were consistently achieved from
                                                                        July 1, 2006, through June 30, 2007. While we noted that
Longtime RD Employee Sentenced for                                      OCFO/NFC continued to improve its internal controls,
Embezzlement                                                            the reports identiﬁed weaknesses related mainly to processes
In August 2007, a former USDA employee with 25 years                    that were updated during our review or to issues identiﬁed
of Federal service with RD was sentenced in the Western                 from the FY 2006 review that had not been addressed
District of Missouri to serve 24 months in prison, followed             completely. OCFO/NFC continues to address these issues.
by 36 months of supervised release, and ordered to pay                  (Audit Report No. 11401-26-FM, FY 2007 NFC General
$160,484 in restitution for embezzlement. The former                    Controls)
employee also was ordered to apply $42,414 in retirement
account funds and $6,061 in earned leave toward restitution.
The investigation revealed that, while employed at the
local RD oﬃce, the former employee created ﬁctitious
loan ﬁles and grant applications. In addition, the former
employee forged signatures on loan documents to divert
approximately $240,000 for personal use.




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half        19
                                                               Goal 3




Ofﬁce of the Chief Information Ofﬁcer (OCIO)/                           GOVERNMENTWIDE ACTIVITIES — GOAL 3
National Information Technology Center’s                                Review of Legislation, Regulations, Directives,
(NITC) Controls Are Suitably Designed                                   and Memoranda

Our review of the OCIO/NITC internal control structure                  ■   Departmental Regulation, “USDA Intramural Research
as of June 30, 2007, disclosed that the documentation of                    Misconduct Policies and Guidelines.” OIG commented
control objectives and techniques provided by OCIO/                         on the proposed USDA DR, “USDA Intramural
NITC presented fairly, in all material aspects, the relevant                Research Misconduct Policies and Guidelines,”
aspects of OCIO/NITC’s control environment taken as a                       which would make permanent USDA’s temporary
whole. Also, in our opinion, the policies and procedures                    policies contained in Secretary’s Memorandum No.
are suitably designed to provide reasonable assurance that                  2400-007. OIG recommended the DR clarify that
the control objectives would be achieved and operate                        special considerations must be taken into account
eﬀectively. (Audit Report No. 88501-10-FM, FY 2007                          when a criminal investigation is being conducted at
NITC – General Controls Review)                                             the same time a research institution is conducting
                                                                            its own inquiry, investigation, or adjudication. In
                                                                            addition, OIG recommended clariﬁcation of the DR’s
FSA Needs To Improve the Identiﬁcation and
                                                                            reporting, documentation, and appeal provisions and
Reporting of Improper Payments in Its High-
                                                                            strengthening the available remedies for ﬁndings of
Risk Programs
                                                                            research misconduct.
OCFO, the lead agency for coordinating and reporting
the Department’s eﬀorts to implement the Improper                       ■   Proposed Rule 7 C.F.R. Part 3022, “Research Institutions
Payments Information Act of 2002 (IPIA), considered                         Conducting USDA-Funded Extramural Research;
compliance with IPIA a top priority for FY 2007. In our                     Research Misconduct.” OIG commented on a proposed
continuing evaluation of USDA’s compliance with IPIA                        rule that would govern research institutions conducting
requirements, OIG audited the FSA process for statistically                 USDA funded extramural research, and misconduct
identifying estimates of improper payments in its three                     involving extramural research. OIG recommended
high-risk programs reported in the FY 2005 Performance                      that allegations of research misconduct be reported
and Accountability Report. Our audit revealed signiﬁcant                    directly to the Department’s Research Integrity Oﬃcer
issues related to the methodology FSA used to determine                     and/or OIG instead of the agency to alleviate potential
its improper payment estimates, including selected sample                   credibility concerns regarding any subsequent inquiry,
payments that were not reviewed, calculations that did not                  investigation, or adjudication of the allegations. OIG
account for program payment variables, missing supporting                   also recommended clariﬁcation of reporting and
payment documentation, and substantial eligibility                          notiﬁcation provisions to ensure that members of the
criteria that were not considered. FSA agreed to develop                    public, research institutions, and USDA agencies are
and implement controls to ensure that statistical sampling                  aware of the appropriate oﬃces to which they can
processes comply with all Oﬃce and Management and                           and should report allegations of research misconduct.
Budget (OMB) and OCFO requirements, and that agency                         Finally, OIG recommended that the proposed rule
personnel deﬁne the speciﬁc criteria and conditions that                    address special considerations that must be taken
could result in improper payments for each high-risk                        into account when a criminal investigation is being
program. (Audit Report No. 03601-14-Ch, Improper                            conducted at the same time a research institution
Payments – Monitoring the Progress of Corrective Actions                    is conducting its own inquiry, investigation, or
for High-Risk Programs in FSA)                                              adjudication.




  20     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                                 Goal 3




■   The PCIE and the Government Accountability Oﬃce                           “Strengthening the Unique Roles of Inspectors
    (GAO) jointly released the Financial Audit Manual                         General.” Her statement addressed provisions of
    Volume 3 Exposure Draft and requested comments                            particular interest to the IG community that were in
    by users. OIG Audit reviewed the exposure draft                           both S. 680, the Accountability and Government
    and provided comments to the PCIE/GAO team.                               Contracting Act of 2007, and S. 1723, the Improving
    Our comments included editorial corrections and                           Government Accountability Act (the Senate
    revisions to certain steps/procedures to facilitate timely                counterpart to H.R. 928).
    completion of audits conducted in accordance with
    the manual.                                                               In addition, the Legislation Committee provided
                                                                              comments to the GSA Regulatory Secretariat on a
■   OMB released the draft Revised Audit Requirements                         proposed Federal Acquisition Rule that would establish
    for Federal Financial Statements (OMB Bulletin No.                        a consistent policy regarding contractors’ code of ethics
    07-04). OIG Audit reviewed the draft and provided                         and business conduct, contractors’ responsibility to
    editorial and content edits to OMB. We speciﬁcally                        avoid improper business practices, and procedures for
    asked for additional clariﬁcation of proposed changes                     contractors displaying an agency OIG Fraud Hotline
    regarding the audit of intragovernmental parent-child                     poster to facilitate the reporting of wrongdoing. The
    transactions.                                                             committee commented that the rule needed to clarify
                                                                              that IGs are responsible for determining the need for,
■   OMB released draft Circular No. A-136, Financial                          and content of, their respective agency OIG fraud
    Reporting Requirements. OIG Audit reviewed the                            hotline poster(s). On an ongoing basis, the committee
    draft and provided editorial and content edits to                         continued to monitor and track all IG-related
    OMB. Speciﬁcally, we requested that OMB consider                          legislation that is introduced in Congress and to keep
    additional clariﬁcations regarding changes to certain                     the aﬀected IGs notiﬁed of these bills’ progress.
    ﬁnancial statements.
                                                                          ■   As a member of the PCIE Audit Committee, the
Participation on Committees, Working Groups,                                  USDA IG works with other committee members to
and Task Forces                                                               provide guidance to the Federal audit community by
                                                                              sponsoring reviews of Government-wide issues, and
■   PCIE Legislation Committee. The USDA Inspector                            developing professional standards for audit activities.
    General (IG) currently serves as the Chair of the                         During this period the committee worked with GAO
    Legislation Committee of the PCIE. During the                             in issuing new Government Auditing Standards;
    reporting period, the Legislation Committee held                          addressed issues involving personally identiﬁable
    several meetings to discuss legislative and regulatory                    information (PII), the OIG audit peer review process,
    items of interest to the IG community. The IG testiﬁed                    and basic auditor training for all OIG oﬃces; and
    on June 20, 2007, before the House Committee on                           issued a report addressing National Single Audits.
    Oversight and Government Reform’s Subcommittee
    on Government Management, Organization, and                           ■   The USDA IG is a member of the National
    Procurement on issues pertaining to the independence                      Procurement Fraud Task Force, formed by DOJ in
    and accountability of Federal IGs in the context of                       October 2006 as a partnership among Federal agencies
    H.R. 928, the Improving Government Accountability                         charged with the investigation and prosecution of
    Act. The IG also submitted a statement for the record                     illegal acts in connection with Government contracting
    on behalf of the Legislation Committee to the Senate                      and grant activities. The task force has worked to better
    Committee on Homeland Security and Governmental                           allocate resources and improve coordination in
    Aﬀairs following its hearing on July 11, 2007, on                         procurement and grant fraud cases and otherwise to




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half        21
                                                                Goal 3




     accelerate investigations and prosecutions. At the                  ■   The PCIE Financial Statement Audit Network (FSAN)
     regional level, OIG Investigations ﬁeld oﬃces                           released the draft Oﬃce of Personnel Management
     participate on Procurement Fraud Task Forces initiated                  Agreed-Upon Procedures for review. OIG Audit reviewed
     by the local United States Attorneys’ Oﬃces. OIG                        the draft and provided editorial and content edits to
     investigators in the Northeast Region are participating                 PCIE/FSAN. A signiﬁcant problem was the amount
     in a multi-agency investigation involving surety bond                   of time provided for completion of the agreed-upon
     fraud. Surety bonds are one of the requirements                         procedures in relation to the release date of the revised
     necessary to obtain a Government contract. OIG also                     procedures.
     participates in one of the working groups formed by
     the task force, the Legislation Committee. During this              Testimony Delivered
     period, the committee produced a white paper
     proposing certain reforms of laws and regulations                   ■   IG Testiﬁes Before the House Committee on Oversight
     dealing with ethics and internal controls, with the goal                and Government Reform Regarding the Federal Crop
     of enhancing the Government’s ability to prevent and                    Insurance Program. On May 3, 2007, the IG presented
     detect fraud.                                                           testimony on waste, fraud, and abuse in the crop
                                                                             insurance program, based on OIG’s audit and
■    The Hurricane Katrina Fraud Task Force tracks referrals                 investigative work on the program. The testimony
     of potential cases and complaints, coordinates with                     stated that because the program assigns low overall risk
     law enforcement agencies to initiate investigations,                    to the private insurance companies, the companies have
     and works with the appropriate U.S. Attorney’s                          less incentive to administer the insurance policies in
     Oﬃces to ensure timely and eﬀective prosecution of                      accordance with the Government’s and taxpayers’ best
     Hurricane Katrina and Rita-related fraud cases. OIG                     interest. The structure of the crop insurance program
     has a Special Agent assigned as point of contact for                    continues to increase the Federal Government’s
     the Joint Command Center. (See related information                      ﬁnancial responsibility for payments to program
     under Goal 2 working groups/task forces.)                               providers and recipients. While the program’s statutory
                                                                             foundation has been successful at broadening the safety
■    USDA OIG, with the Federal Election Commission                          net for producers, Federal policymakers and program
     OIG, jointly hosted the 2007 PCIE/ECIE Training                         managers should reassess what constitutes acceptable
     Conference in Gettysburg, Pennsylvania, on April                        costs to the Government. Vulnerabilities and common
     16-18, 2007. With the theme of “Making a Positive                       fraud schemes in the crop insurance program, such as
     Diﬀerence in a Challenging World,” the conference                       the false reporting of crop production data, collusion
     provided a forum for the community of 64 Federal                        among program participants, and the creation of sham
     IGs to address current and future challenges facing the                 farming entities, were addressed in the testimony.
     IG community. Speakers included then-Secretary of
     Agriculture Mike Johanns and Secretary of the Interior              ■   Deputy Inspector General (DIG) Kathleen S. Tighe
     Dirk Kempthorne, who presented a secretarial joint                      Testiﬁes Before the House Committee on Agriculture’s
     session. David Walker, Comptroller General, GAO,                        Subcommittee on General Farm Commodities and Risk
     addressed GAO and IG areas of mutual interest. Other                    Management. On June 7, 2007, the DIG presented
     topics included IT security and the loss of PII, the                    testimony on OIG’s views on the Federal Crop
     agency head/IG relationship, dilemma decisionmaking,                    Insurance Program. The DIG testiﬁed that there has
     and future directions for the PCIE/ECIE.                                been a signiﬁcant upward trend in Federal payments
                                                                             to private insurance companies for their expenses
■    OIG Audit completed the PCIE’s Federal Audit                            and underwriting gains from 2000 to 2006. The
     Executive Council Survey on Peer Reviews. We provided                   Government’s subsidy of premiums increased by more
     comments to PCIE based on our experience with our
     most recent peer reviews.




    22   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                              Goal 3




    than 180 percent during that period. Three elements
    are essential for an eﬀective Federal crop insurance
    program: proper assignment of risk between approved
    insurance providers and the Government; eﬀective
    management controls, including a strong Quality
    Control system; and aggressive compliance reviews/
    investigations to address fraud. Since FY 1999, OIG
    investigations pertaining to the crop insurance program
    have resulted in 69 indictments, 52 convictions, and
    more than $54 million in monetary recoveries. The
    testimony supported USDA’s crop insurance program
    reforms presented in its 2007 Farm Bill proposals, and
    made other recommendations such as the need for the
    Department to accelerate its implementation of its
    comprehensive information management system and
    to ﬁnalize RMA measures regarding claim anomalies
    and conﬂicts of interest.

■   DIG Testiﬁes Before the House Committee on Natural
    Resources’ Subcommittee on National Parks, Forests,
    and Public Lands Regarding Wildﬁre Preparedness.
    On June 19, 2007, the DIG presented testimony
    concerning OIG’s work on wildﬁre preparedness
    issues. The DIG testiﬁed that reducing the buildup of
    hazardous fuels (such as dead vegetation) in national
    forests is crucial to reducing the severity and costs
    of wildﬁres. The testimony highlighted the major
    ﬁndings and recommendations of OIG’s review of
    FS’ implementation of the Healthy Forests Initiative
    (HFI). OIG recommended that FS needs to be able
    to identify the level of risk for signiﬁcant wildland
    ﬁres throughout the National Forest System; prioritize
    fuels reduction projects according to their urgency and
    eﬀectiveness; and improve its performance measures
    and reporting standards for HFI. OIG plans a followup
    audit regarding HFI in FY 2008.




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half   23
                                                                  Goal 3




ONGOING AND PLANNED REVIEWS FOR GOAL 3

Topics that will be covered in ongoing or planned reviews under Goal 3 include:



■    Hurricane relief initiatives:                                         ■   replacement plan – ﬁreﬁghting aerial resources (FS),
     ■     Emergency Conservation Program (FSA),
                                                                           ■   FS ﬁreﬁghting succession plans,
     ■     Section 32 disaster programs including the Feed,
           Hurricane (crop), Livestock, and Tree Indemnity                 ■   FS acquisition of IT software/hardware,
           Programs and aquaculture grants (FSA and                        ■   FS National Fire Plan Reporting System,
           Commodity Credit Corporation),
                                                                           ■   FS Working Capital Fund,
     ■     Emergency Forestry Conservation Reserve Program
           (FSA),                                                          ■   FS Forest Legacy Program – appraisal process,

■    review of USDA’s accountability of actions taken on                   ■   FS Fire Program Analysis System,
     program civil rights complaints (Ofﬁce of Adjudication and
                                                                           ■   effectiveness and enforcement of debarment and
     Compliance),
                                                                               suspension regulations in USDA,
■    Grain Inspection, Packers and Stockyard Administration’s
                                                                           ■   implementation of Renewable Energy Programs in USDA,
     Management and Oversight of the Packers and Stockyards
     Program followup,                                                     ■   Rural Rental Housing (RRH) project maintenance costs/
                                                                               inspection procedures (RHS),
■    AMS fresh product grading,
                                                                           ■   Rural Utilities Service – Broadband Loan Programs,
■    adequacy of AMS meat grading procedures,
                                                                           ■   RD debt collections on Direct and Guaranteed Loans,
■    RMA compliance activities,
                                                                           ■   RD Community Facilities Guaranteed Loan Program,
■    RMA’s 2005 emergency hurricane relief efforts in Florida,
                                                                           ■   RUS Water & Wastewater System Grants – Alaska,
■    Conservation Security Program (NRCS),
                                                                           ■   RUS controls over Water and Waste Disposal Loan and
■    effectiveness of status review process in assessing
                                                                               Grant Program,
     producer compliance with conservation provisions (NRCS),
                                                                           ■   Rural Telephone Bank closeout audit,
■    NRCS WRP – restoration compliance,
                                                                           ■   annual audits of the Department and standalone agencies’
■    controls over technical service providers (NRCS),
                                                                               ﬁnancial statements for FYs 2006 and 2007 (OCFO), and
■    Export Guarantee Programs (FAS),
                                                                           ■   annual audit of FY 2007 closing package (OCFO).
■    FS Invasive Species Program,


The ﬁndings and recommendations from these efforts will be covered in future semiannual reports as the relevant audits, inspections, and
investigations are completed.




    24    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                            Impact of the OIG




Gauging the Impact of the OIG
MEASURING PROGRESS AGAINST THE OIG                                        FOR AUDITS WE SHOW
STRATEGIC PLAN                                                            ■     reports issued

                                                                          ■     management decisions made (number
The ﬁrst way we gauged our impact was by measuring the
                                                                                of reports and recommendations)
extent to which our work focused on the key issues under
our three strategic goals:                                                ■     total dollar impact of management-decided reports
                                                                                (questioned costs and funds to be put to better use)
■ Support USDA in the enhancement of safety and                           ■     program improvement recommendations
  security measures to protect USDA and agricultural
  resources and in related public health concerns.                        ■     audits without management decision

■ Reduce program vulnerabilities and enhance
  integrity in the delivery of beneﬁts to individuals.                    FOR INVESTIGATIONS WE SHOW

■ Increase the efﬁciency and effectiveness with which                     ■     indictments
  USDA manages and employs public assets and resources,                   ■     convictions
  including physical and information resources.
                                                                          ■     arrests

                                                                          ■     total dollar impact (recoveries, restitutions, ﬁnes)
IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK
ON DEPARTMENT PROGRAMS                                                    ■     administrative sanctions
A second way we gauge our impact is by tracking the                       ■     OIG Hotline complaints
outcomes of our audits and investigations. Many of these
measures are codiﬁed in the Inspector General Act of
1978, as amended. The following pages present a statistical
overview of the OIG’s accomplishments this period.




                   PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS

                                                                                                                    FY 2007        FY 2007
                                                                                          FY 2006     FY 2007       2nd Half       Full Year
 Performance Measures                                                                     Baseline       Target       Actual         Actual


 Audit/Investigative resources dedicated to critical/high-impact work                         91.8%        90%         93.6%           92.8%




 Audit recommendations resulting in management decision within 1 year                         89.5%        85%         80.8%           84.0%



 Investigative cases where criminal, civil, or administrative action is taken in
                                                                                              77.4%        65%         72.7%           73.7%
 response to OIG reports




                                                                  USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half              25
                                                      Impact of the OIG




RECOGNITION OF OIG EMPLOYEES BY THE DEPARTMENT AND IG COMMUNITY



Secretary’s Annual Honors Awards                                   President’s Volunteer Service Award

Hurricane Relief Team                                              Jewel Moore
Chicago, Illinois                                                  Audit

                                                                   Matthew Wilkins
                                                                   Investigations

PCIE/ECIE Awards for Excellence
                                                                   Jim Legg
                                                                   Audit
Nancy Sullivan
Oﬃce of Management

Healthy Forests Initiative Audit Team
Audit

Emergency Housing Assistance for Victims of
Gulf Coast Region Hurricanes Audit Team
Audit

USDA–DHS Agricultural Inspection Activities
Review Team
Audit

Large Wildﬁre Suppression Costs Audit Team
Audit

The Anti-Tampering Investigation and
Prosecution Team
Investigations

Michigan Crop Insurance Investigation Team
Investigations

Chesapeake Bay Program Evaluation Team
Audit

Disaster Recovery Working Group –
Information Sharing Subgroup
Multidisciplinary




  26    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                                                                 Impact of the OIG




                                                                       SUMMARY OF AUDIT ACTIVITIES
                                                                                      APRIL — SEPTEMBER 2007

            REPORTS ISSUED                                                                                                                                                                           23
            AUDITS PERFORMED BY OIG                                                                                                                                                                   21
            EVALUATIONS PERFORMED BY OIG                                                                                                                                                               0
            AUDITS PERFORMED UNDER THE SINGLE AUDIT ACT                                                                                                                                                0
            AUDITS PERFORMED BY OTHERS                                                                                                                                                                 2
            MANAGEMENT DECISIONS MADE
            NUMBER OF REPORTS                                                                                                                                                                        30
            NUMBER OF RECOMMENDATIONS                                                                                                                                                               261

            TOTAL DOLLAR IMPACT (MILLIONS) OF MANAGEMENT-DECIDED REPORTS                                                                                                                           $79.6
            QUESTIONED/UNSUPPORTED COSTS                                                                                                                              $59.8  ab

              RECOMMENDED FOR RECOVERY                                                                                                               $11.6
              NOT RECOMMENDED FOR RECOVERY                                                                                                           $48.2
            FUNDS TO BE PUT TO BETTER USE                                                                                                                             $19.8
    a
        These were the amounts the auditees agreed to at the time of management decision.
    b
        The recoveries realized could change as the auditees implement the agreed upon corrective action plan and seek recovery of amounts recorded as debts due the Department.




                                                             SUMMARY OF INVESTIGATIVE ACTIVITIES
                                                                                      APRIL — SEPTEMBER 2007

            Reports Issued                                                                                                                                                                          163

            Cases Opened                                                                                                                                                                            176

            Cases Closed                                                                                                                                                                            111

            Cases Referred for Prosecution                                                                                                                                                          218

            IMPACT OF INVESTIGATIONS
            Indictments                                                                                                                                                                             353

            Convictions                                                                                                                                                                             341a

            Searches                                                                                                                                                                                  54

            Arrests                                                                                                                                                                                 952

            TOTAL DOLLAR IMPACT (MILLIONS)                                                                                                                                                        $19.7
            Recoveries/Collections                                                                                                                  $2.8b

            Restitutions                                                                                                                            $8.6c

            Fines                                                                                                                                   $3.4d

            Claims Established                                                                                                                      $3.6e

            Cost Avoidance                                                                                                                          $0.5f

            Administrative Penalties                                                                                                                $0.8g

            ADMINISTRATIVE SANCTIONS                                                                                                                                                                 87
            Employees                                                                                                                                                                                 24

            Businesses/Persons                                                                                                                                                                        63
a
        Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the 341 convictions do not necessarily relate to the 353 indictments.
b
        Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
        Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
        Fines are court-ordered penalties.
e
        Claims established are agency demands for repayment of USDA beneﬁts.
f
        Consists of loans or beneﬁts not granted as the result of an OIG investigation.
g
        Includes monetary ﬁnes or penalties authorized by law and imposed through an administrative process as a result of OIG ﬁndings.




                                                                                                           USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half                                              27
                                                       Impact of the OIG




Full FY 2007 Results in Key Categories

                                         SUMMARY OF AUDIT ACTIVITIES
                                            OCTOBER 2006 — SEPTEMBER 2007

      REPORTS ISSUED                                                                  61
      MANAGEMENT DECISIONS MADE
      NUMBER OF REPORTS                                                               55
      NUMBER OF RECOMMENDATIONS                                                      494
      TOTAL DOLLAR IMPACT (MILLIONS) OF MANAGEMENT-DECIDED REPORTS                  $90.9
      QUESTIONED/UNSUPPORTED COSTS                                          $71.1
      FUNDS TO BE PUT TO BETTER USE                                         $19.9




                                      SUMMARY OF INVESTIGATIVE ACTIVITIES

      REPORTS ISSUED                                                                318
      IMPACT OF INVESTIGATIONS
      INDICTMENTS                                                                     524
      CONVICTIONS                                                                     442
      ARRESTS                                                                       1,405
      TOTAL DOLLAR IMPACT (MILLIONS) OF MANAGEMENT-DECIDED REPORTS                  $63.2
      ADMINISTRATIVE SANCTIONS                                                      145




 28      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                       Impact of the OIG




                         INVENTORY OF AUDIT REPORTS
                         WITH RECOMMENDATIONS THAT
                         FUNDS BE PUT TO BETTER USE
                        FROM APRIL 1 THROUGH SEPTEMBER 30, 2007


                                                                              NUMBER        DOLLAR VALUE


     FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY
A.                                                                               11           $329,569,027
     APRIL 1, 2007




B.   WHICH WERE ISSUED DURING THE REPORTING PERIOD                                3             $1,658,425




     TOTALS                                                                      14           $331,227,452




     FOR WHICH A MANAGEMENT DECISION WAS MADE DURING THE
C.                                                                                8
     REPORTING PERIOD




     (1) DOLLAR VALUE OF DISALLOWED COSTS                                                      $19,781,379




     (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                    $126,593




     FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY THE END OF
D.                                                                                6           $311,319,480
     THE REPORTING PERIOD




     REPORTS FOR WHICH NO MANAGEMENT DECISION WAS MADE WITHIN 6
                                                                                  4           $310,128,381
     MONTHS OF ISSUANCE




                                             USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half   29
                                                                           Impact of the OIG




                                                            INVENTORY OF AUDIT REPORTS WITH
                                                              QUESTIONED COSTS AND LOANS
                                                             FROM APRIL 1 THROUGH SEPTEMBER 30, 2007



                                                                                                         DOLLAR VALUES


                                                                                                        QUESTIONED       UNSUPPORTEDa
                                                                                                        COSTS AND         COSTS AND
                                                                                               NUMBER     LOANS             LOANS

A.
                         FOR WHICH NO MANAGEMENT DECISION HAD BEEN MADE BY                       18      $103,750,430       $50,357,412
                         APRIL 1, 2007


B.                       WHICH WERE ISSUED DURING THIS REPORTING PERIOD                          7         $4,078,932           $38,377



TOTALS                                                                                           25      $107,829,362       $50,395,789



C.
                         FOR WHICH A MANAGEMENT DECISION WAS MADE DURING                         12
                         THIS REPORTING PERIOD


                         (1) DOLLAR VALUE OF DISALLOWED COSTS


                         RECOMMENDED FOR RECOVERY                                                         $11,618,794        $8,982,446



                         NOT RECOMMENDED FOR RECOVERY                                                     $48,239,250       $38,636,906



                         (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                          $4,902,223        $2,717,778



D.
                         FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY                       13       $43,249,467           $58,659
                         THE END OF THIS REPORTING PERIOD


                         REPORTS FOR WHICH NO MANAGEMENT DECISION WAS                            7        $39,202,391           $20,282
                         MADE WITHIN 6 MONTHS OF ISSUANCE


a
    Unsupported values are included in questioned values.




     30        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                              Impact of the OIG




PROGRAM IMPROVEMENT RECOMMENDATIONS                                         ■     FNS has required the Puerto Rico Health
                                                                                  Department to develop a corrective action plan with
A signiﬁcant number of our audit recommendations carry no                         timeframes for correcting all unresolved identiﬁed
                                                                                  program weaknesses for WIC in Puerto Rico.
monetary value per se, but their impact can be immeasurable
in terms of safety, security, and public health. They can also              ■     FNS agreed to require the States to work with the largest
contribute considerably toward economy, eﬃciency, and                             EBT processor for food stamps to strengthen controls over
eﬀectiveness in USDA’s programs and operations. During                            unapplied beneﬁts and balancing accounts on the EBT
this reporting period, we issued 62 program improvement                           system, and implement controls to limit excessive refunds.
recommendations, and management agreed to implement a                       ■     CR agreed to develop a detailed formal plan to process
total of 210 program improvement recommendations that                             EEO complaints timely and effectively; fully implement,
were issued this period or earlier. Examples of the program                       test, and apply business rules in the Civil Rights Enterprise
improvement recommendations issued this period (see the                           System, and validate the accuracy of information entered;
main text of this report for a summary of the audits that                         implement procedures to control and monitor case
prompted these program improvement recommendations)                               ﬁle documentation and organization; and identify and
include the following:                                                            destroy unneeded closed documentary case ﬁles.
                                                                            ■     FSA agreed to develop and implement controls to ensure
■    FSIS agreed to develop a new IT system to track domestic                     that statistical sampling processes comply with all OMB
     inspection activities, including egg products processing,                    and OCFO requirements, and that agency personnel
     which will replace PBIS; agreed to conduct trend                             deﬁne the speciﬁc criteria and conditions that could
     analyses to identify serious or widespread deﬁciencies                       result in improper payments for each high-risk program.
     at egg products processing plants and correct them;
     and included egg products processing plants in the May
     2007 Canadian equivalency review and agreed to include
     egg products processing plants in future reviews.
■    FNS agreed to ﬁnalize Federal food stamp regulations
     pertaining to disaster assistance to specify State agency
     responsibilities for developing, testing, and implementing
     disaster assistance programs; develop and implement
     procedures detailing how FNS regional ofﬁces will review
     State Disaster Food Stamp Program plans and determine
     their adequacy; and require States to test their disaster
     systems used to process applications to ensure controls
     are in place for properly processing applications.




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half              31
                                                                              Impact of the OIG




                                            SUMMARY OF AUDIT REPORTS RELEASED FROM
                                              APRIL 1 THROUGH SEPTEMBER 30, 2007
                         DURING THE 6-MONTH PERIOD FROM APRIL 1 THROUGH SEPTEMBER 30, 2007, THE OFFICE
                         OF INSPECTOR GENERAL ISSUED 23 AUDIT REPORTS, INCLUDING 2 PERFORMED BY OTHERS.
                                                           THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:


                                                                                                              QUESTIONED      UNSUPPORTEDa       FUNDS
                                                                                                     AUDITS    COSTS AND         COSTS AND    BE PUT TO
AGENCY                                                                                            RELEASED         LOANS             LOANS   BETTER USE
OFFICE OF THE CHIEF INFORMATION OFFICER                                                                   1

CIVIL RIGHTS                                                                                              1

COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE                                              1         $76,359        $23,889      $874,986

FARM SERVICE AGENCY                                                                                       2        $149,590                     $316,113

FOOD AND NUTRITION SERVICE                                                                                6         $53,635        $14,488

FOOD SAFETY AND INSPECTION SERVICE                                                                        1

FOREST SERVICE                                                                                            2                                     $467,326

MULTIAGENCY                                                                                               3     $1,385,937

OFFICE OF THE CHIEF FINANCIAL OFFICER                                                                     2

RISK MANAGEMENT AGENCY                                                                                    1

RURAL HOUSING SERVICE                                                                                     3     $2,413,411


TOTALS                                                                                                  23    $4,078,932          $38,377    $1,658,425

TOTAL COMPLETED:
      SINGLE AGENCY AUDIT                                                                                20
      MULTIAGENCY AUDIT                                                                                   3
      SINGLE AGENCY EVALUATION                                                                            0
      MULTIAGENCY EVALUATION                                                                              0
TOTAL RELEASED NATIONWIDE                                                                                23
TOTAL COMPLETED UNDER CONTRACTb                                                                           2
TOTAL SINGLE AUDIT ISSUED                       c
                                                                                                          0
a
    Unsupported values are included in questioned values
b
    Indicates audits performed by others
c
    Indicates audits completed as Single Audit
                                                                                                                                                 -Continued




    32      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                                  Impact of the OIG




                      AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                                                                          QUESTIONED      UNSUPPORTED
                       RELEASE                                                            COSTS AND        COSTS AND     FUNDS BE PUT
AUDIT NUMBER             DATE                          TITLE                                LOANS            LOANS       TO BETTER USE


Ofﬁce of the Chief Information Ofﬁcer
                                    FY 2007 National Information Technology
885010010FM           2007/09/27
                                    Center – General Controls Review
Total: Oﬃce of the Chief Information Oﬃcer                                            1



Civil Rights
                                    Review of USDA Employee Civil Rights
606010004HY           2007/05/14
                                    Complaints
Total: Civil Rights                                                                   1



Cooperative State Research, Education, and Extension Service
130110003AT           2007/08/17    CSREES – Tribal Land-Grant Institutions                     $76,359        $23,889             $874,986
Total: Cooperative State Research, Education and Extension Service                    1         $76,359        $23,889             $874,986



Farm Service Agency
                                    Tobacco Transition Payment Program
036010012AT           2007/09/26    Quota Holder Payments and Flue-Cured                       $149,590                            $316,113
                                    Tobacco Quotas
                                    Improper Payments – Monitoring the
036010014CH           2007/05/18    Progress of Corrective Actions for High-
                                    Risk Programs in FSA
Total: Farm Service Agency                                                            2        $149,590                            $316,113



Food and Nutrition Service
270040004AT           2007/05/24    WIC Program, Puerto Rico
                                    Meal Accountability at Choice Schools in
270040005CH           2007/05/03
                                    Milwaukee, WI
                                    DCAA Audit of ABT Associates’ FY 2002
270170001HQ           2007/09/05
                                    Incurred Cost
270990034SF           2007/08/17    Summer Food Service Program                                 $53,635        $14,488
                                    FNS Disaster Food Stamp Program for
270990049TE           2007/09/04
                                    Hurricanes Katrina and Rita

                                    JP Morgan EFS Oversight of EBT
270990069HY           2007/09/28
                                    Operations

Total: Food and Nutrition Service                                                     6         $53,635        $14,488




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half      33
                                                                   Impact of the OIG




                    AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                                                                            QUESTIONED      UNSUPPORTED
                         RELEASE                                                            COSTS AND        COSTS AND    FUNDS BE PUT
AUDIT NUMBER               DATE                        TITLE                                  LOANS            LOANS      TO BETTER USE


Food Safety and Inspection Service
246010008CH             2007/08/23   Egg Processing Inspection
Total: Food Safety and Inspection Service                                              1



Forest Service
                                     DCAA Audit of Serco, Inc., Termination
080170012HQ             2007/06/11
                                     for Convenience
086010050SF             2007/09/28   FS Stewardship Contracts                                                                   $467,326
Total: Forest Service                                                                  2                                        $467,326



Multi-Agency
                                     Crop Bases on Lands With Conservation
500990011SF             2007/08/27                                                             $1,385,937
                                     Easements
                                     FY 2007 Federal Information Security
505010011FM             2007/09/26
                                     Management Act Report
506010003HY             2007/06/13   Trade Adjustment Assistance for Farmers
Total: Multi-Agency                                                                    3       $1,385,937



Ofﬁce of the Chief Financial Ofﬁcer
                                     FY 2007 – National Finance Center
114010026FM             2007/09/27
                                     General Controls
                                     FY 2007 Agreed-Upon Procedures:
                                     Retirement, Health Beneﬁts, and Life
                                     Insurance Withholdings/Contributions
114010027FM             2007/09/21
                                     and Supplemental Semiannual Headcount
                                     Report Submitted to the Oﬃce of Personnel
                                     Management
Total: Oﬃce of the Chief Financial Oﬃcer                                               2



Risk Management Agency
050990113KC             2007/06/26   Asian Soybean Rust Claims
Total: Risk Management Agency                                                          1



Rural Housing Service
                                     Review of RHS Force-Placed Hazard
040990139KC             2007/09/28                                                               $31,856
                                     Insurance
                                     Review of Selected Lender – RHS
046010009SF             2007/09/28   Guaranteed Loan Program, State of                         $2,369,110
                                     Mississippi
                                     Controls Over Single-Family Housing
046010016CH             2007/09/25                                                               $12,445
                                     Grants and Loans
Total: Rural Housing Service                                                           3       $2,413,441

GRAND TOTAL                                                                            23   $4,078,932         $38,377      $1,658,425




  34      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                                    Impact of the OIG




                                      AUDITS WITHOUT MANAGEMENT DECISION
The Inspector General Act has a number of reporting requirements, among them tracking audits without management decision. The following
audits did not have management decisions made within the 6-month limit imposed by Congress. Narratives for new entries follow this table.
An asterisk (*) indicates that an audit is pending judicial, legal, or investigative proceedings that must be completed before the agency can act to
complete management decisions.
                                                                                                            Total Value at        Amount With No
                                                                                                             Issuance (in        Mgmt. Decision (in
     Agency           Date Issued                              Title of Report                                  dollars)             dollars)


NEW SINCE LAST REPORTING PERIOD
                                        1. Trade Promotion Operations
FAS                 02/22/07
                                           (07601-1-Hy)
                                                                                                                             0                         0

                                        2. DCAA Audit of Warden Assoc. Inc., Cost Veriﬁcation
FS                  02/21/07
                                           (08017-10-HQ)
                                                                                                                       19,422                   19,422

                                        3. IT – Lost or Stolen Items Containing Sensitive
Multiagency         02/27/07               Information                                                                       0                         0
                                           (50501-8-FM)
                                        4. Implementation of Trade Title of 2002 Farm Bill and
                    03/28/07               PMA                                                                               0                         0
                                           (50601-12-At)
                                        5. Controls Over SFH Funds Provided for Hurricane
RHS                 03/30/07
                                           Relief Eﬀorts (04601-15-Ch)
                                                                                                                     388,842                  320,152

                                        6. Evaluation of RMA Indemnity Payments for 2004
RMA                 03/26/07               Florida Hurricanes                                                        415,710                  415,710
                                           (05099-27-At)




                                                                           USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half                     35
                                                                 Impact of the OIG




                                      PREVIOUSLY REPORTED BUT NOT YET RESOLVED
These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the recommendations where
management decisions had not been reached have been reported in previous Semiannual Reports to Congress. Agencies have been informed of
actions that must be taken to reach management decision, but for various reasons the actions have not been completed. The appropriate Under and
Assistant Secretaries have been notiﬁed of those audits without management decisions.
                                      7. Safeguards To Prevent Entry of Prohibited Pests and
APHIS              02/20/03
                                         Diseases Into the United States (33601-3-Ch)
                                                                                                                     0                        0

                                      8. Management and Security Over the Universal
OCIO               08/07/06
                                         Telecommunications Network (#88501-6-FM)
                                                                                                                     0                        0

FSIS               06/21/00           9.   Implementation of the HACCP System (24001-3-At)                           0                        0

                                      10. Oversight of Production Process and Recall at
                   09/30/03                                                                                          0                        0
                                          ConAgra Plant (Establishment 969) (24601-2-KC)
                                      11. HACCP – Compliance by Very Small Plants (24601-
                   6/24/05                                                                                           0                        0
                                          5-At)
                                      12. Implementation of Agricultural Risk Protection Act
Multiagency        09/30/03
                                          (50099-12-KC)
                                                                                                                     0                        0

                                      13. Homeland Security Issues for USDA Grain and
                   02/23/04                                                                                          0                        0
                                          Commodities Inventory (50099-13-KC)
                                      14. Lender Servicing of B&I Guaranteed Loans, Florida
RBS                01/28/02
                                          (34601-3-At)
                                                                                                             1,536,060                1,536,060

                                      15. Lender Servicing of B&I Guaranteed Loans in Georgia
                   01/10/03                                                                                  3,766,908                3,706,908
                                          (34601-4-At)
                                      16. Request Audit of B&I Guaranteed Loan in Arkansas
                   09/29/05                                                                                  2,502,954                        0
                                          (34099-7-Te)
                                      17. RRH Project Costs, Cairo, IL
RHS                09/30/04
                                          (04099-143-Ch)*
                                                                                                               164,000                  164,000

                                      18. SFH, Borrower Income Veriﬁcation Procedures
                   08/14/06                                                                                          0                        0
                                          (04099-341-At
                                      19. Controls Over Multi-Family Housing Funds Provided
                   09/28/06               for Hurricane Relief Eﬀorts                                          160,557                        0
                                          (04601-13-Ch)
                                      20. Monitoring of RMA’s Implementation of Manual 14
RMA                03/15/02               Reviews/Quality Control Review System                                      0                        0
                                          (05099-14-KC)
                                      21. Broadband Grant and Loan Programs
RUS                09/30/05
                                          (09601-4-Te)
                                                                                                          340,376,319                30,377,069




  36     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                           Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION
– NARRATIVE FOR NEW ENTRIES

                                                                         4. Implementation of Trade Title of 2002
1. Trade Promotion Operations (07601-1-Hy),                                 Farm Bill and President’s Management
   Issued February 22, 2007                                                 Agenda (PMA) (50601-12-At), Issued
Three Members of Congress requested that OIG review                         March 28, 2007
the extent to which the FAS programs foster and expand
                                                                         The audit found that FAS had implemented 10 of 13 export
agricultural trade activities. Management decisions have
                                                                         provisions of the 2002 Farm Bill. FAS had not implemented
not been achieved on three of the ﬁve recommendations.
                                                                         the Global Market Strategy and congressional consultations
FAS needs to provide speciﬁc information about when and
                                                                         as required by Section 3206 of the Farm Bill. Legislation
how the agency will review their website, outreach eﬀorts,
                                                                         also required that FAS implement a strategy for increasing
and the accomplishments of the Market Access Program.
                                                                         the level of credit guarantees for the exports of American-
                                                                         processed and high-value commodities each year to 35
2. Defense Contract Audit Agency (DCAA)                                  percent of all credit guarantees. To clarify the deﬁnition of
   Audit of Warden Associates, Inc., Cost                                processed and high-value commodities, we recommended
   Veriﬁcation, (08017-10-HQ), Issued                                    that FAS consult with the Department and with Congress
   February 21, 2007                                                     to properly implement the provisions of the Farm Bill. FAS
                                                                         oﬃcials contend that Congress may provide additional
DCAA audited Warden Associates, Inc.’s cost veriﬁcation                  direction in the 2007 Farm Bill to help them better interpret
at the request of FS. In DCAA’s opinion, total costs, as                 and implement items identiﬁed in the audit.
adjusted by this audit, were deemed acceptable. However, at
the time of the report release, DCAA questioned $19,422
of costs billed by the contractor. Also at that time, the                5. Controls Over SFH Funds Provided for
contractor did not provide comment to DCAA’s ﬁndings.                       Hurricane Relief Efforts (04601-15-Ch),
Negotiations continue with the contractor for increased                     Issued March 30, 2007
questioned costs.                                                        RHS oﬃcials provided emergency funds for repairs and
                                                                         improvements not caused by the hurricanes. This violated
3. IT – Lost or Stolen Items Containing                                  provisions of the Supplemental Appropriations Act related
   Sensitive Information, (50501-8-FM),                                  to the Gulf Coast disaster, which states that funds were to
   Issued February 27, 2007                                              be used to respond to damage caused by the hurricanes.
                                                                         In Mississippi and Louisiana, we examined 63 funded
Our objective was to determine, to the extent possible,                  applications for housing repair grants and found that 59
what information resided on the stolen computers and                     included more than $329,000 in repairs and improvements
what sensitive information currently resides on the existing             not related to damage caused by the Gulf Coast disaster. We
computers. We found that controls over stolen computer                   recommended that RD oﬃcials (1) obtain a formal Oﬃce
equipment were lacking in FSA, NRCS, RD, and IT                          of the General Counsel opinion regarding the appropriate
Services. In addition, agencies did not notify the individuals           use of emergency funds prior to approving applications for
whose information may have been compromised.                             future disasters and (2) develop procedures that provide
Recommendations 1 and 4 for this engagement have not                     guidance to ﬁeld staﬀ on the proper use of emergency funds
reached management decision. Recent documentation                        after disasters.
from OCIO reﬂects management decision concurrence will
be submitted to OIG in October 2007.




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half        37
                                                          Impact of the OIG




6. Evaluation of RMA Indemnity Payments
   for 2004 Florida Hurricanes (05099-27-At),
   Issued March 26, 2007
We found that AIPs’ loss adjusters were not always preparing
loss determinations for citrus payments correctly. Of the
21 citrus claims reviewed, we found that the loss adjusters
had made 35 errors on 15 of those claims that resulted
in $415,710 in overpayments and underpayments. We
recommended that RMA recover erroneous loss adjustment
determinations from the AIP. RMA conditionally agreed
with our recommendation pending further analysis and
evaluation of the matter.




  38     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                              Impact of the OIG




INDICTMENTS AND CONVICTIONS

From April 1 through September 30, 2007, OIG completed
163 investigations. We referred 218 cases to Federal, State,
and local prosecutors for their decision.

During the reporting period, our investigations led to
353 indictments and 341 convictions. The period of time
to obtain court action on an indictment varies widely;
therefore, the 341 convictions do not necessarily relate
to the 353 indictments. Fines, recoveries/collections,
restitutions, claims established, cost avoidance, and
administrative penalties resulting from our investigations
totaled about $19.7 million.

The following is a breakdown, by agency, of indictments
and convictions for the reporting period.




                                                    Indictments and Convictions
                                                       April 1 — September 30, 2007

     Agency                                                                                    Indictments         Convictions*
     APHIS                                                                                           161                      209
     ARS                                                                                                1                      0
     FNS                                                                                             152                      84
     FS                                                                                                 1                      3
     FSA                                                                                               20                      9
     FSIS                                                                                               4                     20
     GIPSA                                                                                              2                      2
     NRCS                                                                                               2                      2
     OCFO                                                                                               0                      1
     RBS                                                                                                2                      0
     RHS                                                                                                7                      6
     RMA                                                                                                1                      5
     Totals                                                                                         353                   341

     *This category includes pretrial diversions.




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half     39
                                                            Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE                                      reporting period, the OIG Hotline received 900 complaints,
                                                                         which included allegations of participant fraud, employee
The OIG Hotline serves as a national receiving point for                 misconduct, and mismanagement, as well as opinions
reports from both employees and the general public of                    about USDA programs. Figure 1 displays the volume and
suspected incidents of fraud, waste, mismanagement, and                  type of the complaints we received, and ﬁgure 2 displays the
abuse in USDA programs and operations. During this                       disposition of those complaints.




       Figure 1.                            Volume and Type of Complaints Received

       Bribery (3)
       Reprisal (2)
       Health/Safety (20)                                                                                   Participant Fraud (531)



       Waste/Mismanagement (109)




       Employee Misconduct (142)
                                                                                                         Opinion/Information (93)




       Figure 2.                            Disposition of Complaints Received

                                                                                                   Referred to USDA or Other Agencies
       Referred to USDA Agencies for Response (364)                                                for Information - No Response
                                                                                                   Needed (102)


                                                                                                   Referred to OIG Audit or
                                                                                                   Investigations for Review (37)

                                                                                                   Filed Without Referral -
                                                                                                   Insuﬃcient Information (61)

                                                                                                   Referred to State Agency (1)
       Referred to FNS for Tracking (333)
                                                                                                   Referred to Other Law
                                                                                                   Enforcement Agencies (2)




  40       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
                                                  Impact of the OIG




                FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA)
                              REQUESTS FOR THE PERIOD APRIL 1 TO SEPTEMBER 30, 2007


Number of FOIA/PA Requests Received                                                                               84
Number of FOIA/PA Requests Processed                                                                              99
 Number Granted                                                                                                        7
 Number Partially Granted                                                                                          53
 Number Not Granted                                                                                                39
Reasons for Denial
 No Records Available                                                                                              12
 Referred to Other Agencies                                                                                            0
 Requests Denied in Full (Exemption 5)                                                                                 0
 Requests Denied in Full (Exemption 7A)                                                                                8
 Requests Denied in Full (Exemption 7C)                                                                                0
 Request Withdrawn                                                                                                     6
 Fee-Related                                                                                                           3
 Not a Proper FOIA Request                                                                                             3
 Not an Agency Record                                                                                                  1
 Duplicate Request                                                                                                     1
 Other                                                                                                                 5
Requests for OIG Reports From Congress and Other Government Agencies
  Received                                                                                                         31
  Processed                                                                                                        31
Appeals Received                                                                                                   4
Appeals Processed                                                                                                  6
 Appeals Completely Upheld                                                                                             1
 Appeals Partially Reversed                                                                                            3
 Appeals Completely Reversed                                                                                           1
 Appeals Requests Withdrawn                                                                                            0
 Other                                                                                                                 1
Number of OIG Reports/Documents Released in Response to Requests                                                  70

NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 20 audit reports were posted to the Internet at the OIG Web site:
        http://www.usda.gov/oig




                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half   41
                                                         Abbreviations




                  Abbreviations of Organizations
AMS         Agricultural Marketing Service
APHIS       Animal and Plant Health Inspection Service
ARS         Agricultural Research Service
CR          Civil Rights
CSREES      Cooperative State Research, Education, and Extension Service
DCAA        Defense Contract Audit Agency
DHS         U.S. Department of Homeland Security
DOJ         U.S. Department of Justice
ECIE        Executive Council on Integrity and Eﬃciency
EEOC        Equal Employment Opportunity Commission
ERT         Emergency Response Team
FAS         Foreign Agricultural Service
FBI         Federal Bureau of Investigation
FDA         Food and Drug Administration
FEMA        Federal Emergency Management Agency
FNS         Food and Nutrition Service
FS          Forest Service
FSA         Farm Service Agency
FSAN        Financial Statement Audit Network
FSIS        Food Safety and Inspection Service
GAO         Government Accountability Oﬃce
GIPSA       Grain Inspection, Packers and Stockyards Administration
JTTF        Joint Terrorism Task Force
NJTTF       National Joint Terrorism Task Force
NFC         National Finance Center
NITC        National Information Technology Center
NRCS        Natural Resources Conservation Service
OOCIC       Ohio Organized Crime Investigations Commission
OCFO        Oﬃce of the Chief Financial Oﬃcer
OCIO        Oﬃce of the Chief Information Oﬃcer
OIG         Oﬃce of Inspector General
OMB         Oﬃce of Management and Budget
PCIE        President’s Council on Integrity and Eﬃciency
PRHD        Puerto Rico Health Department
RBS         Rural Business-Cooperative Service
RD          Rural Development
RHS         Rural Housing Service
RMA         Risk Management Agency
RUS         Rural Utilities Service
USDA        U.S. Department of Agriculture
USMEF       U.S. Meat Export Federation
WFIT        Wildland Fire Investigations Team




  42     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2007 2nd Half
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING
THIS REPORTING PERIOD (210 TOTAL)

  ■       FSIS agreed to develop a new IT system to track domestic inspection activities, including egg products processing,
          which will replace PBIS; agreed to conduct trend analyses to identify serious or widespread deﬁciencies at egg
          products processing plants and correct them; and included egg products processing plants in the May 2007
          Canadian equivalency review and agreed to include egg products processing plants in future reviews.
  ■       FNS agreed to ﬁnalize Federal food stamp regulations pertaining to disaster assistance to specify State agency
          responsibilities for developing, testing, and implementing disaster assistance programs; develop and implement
          procedures detailing how FNS regional oﬃces will review State DFSP plans and determine their adequacy; and
          require States to test their disaster systems used to process applications to ensure controls are in place for properly
          processing applications.
  ■       FNS has required PRHD to develop a corrective action plan with timeframes for correcting all unresolved
          identiﬁed program weaknesses for WIC in Puerto Rico.
  ■       FNS agreed to require the States to work with the largest EBT processor for food stamps to strengthen controls
          over unapplied beneﬁts and balancing accounts on the EBT system, and implement controls to limit excessive
          refunds.
  ■       CR agreed to develop a detailed formal plan to process EEO complaints timely and eﬀectively; fully implement,
          test, and apply business rules in CRES, and validate the accuracy of information entered; implement procedures
          to control and monitor case ﬁle documentation and organization; and identify and destroy unneeded closed
          documentary case ﬁles.
  ■       FSA agreed to develop and implement controls to ensure that statistical sampling processes comply with all OMB
          and OCFO requirements, and that agency personnel deﬁne the speciﬁc criteria and conditions that could result
          in improper payments for each high-risk program.


MISSION OF OIG

OIG assists USDA by promoting eﬀectiveness and integrity in the hundreds of programs of the Department. These
programs encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health,
agricultural production, agricultural product inspection and marketing, rural development, research, conservation, and
forestry. They aﬀect our citizens, our communities, and our economy.


OIG STRATEGIC GOALS

We have focused nearly all of our audit and investigative direct resources on our three strategic goals:


  ■       Support USDA in the enhancement of safety and security measures to protect USDA and agricultural resources
          and in related public health concerns.
  ■       Reduce program vulnerabilities and enhance integrity in the delivery of beneﬁts to individuals.
  ■       Increase the eﬃciency and eﬀectiveness with which USDA manages and employs public assets and resources,
          including physical and information resources.
How To Report Suspected Wrongdoing in USDA Programs




Fraud, Waste, and Abuse:

In Washington, DC: 202.690.1622
Outside DC: 800.424.9121
TDD (Call Collect): 202.690.1202

Bribes or Gratuities:

202.720.7257 (24 hours)
888.620.4185 (24 hours)

To learn more about OIG, visit our Web site at

www.usda.gov/oig/home.htm




United States Department of Agriculture
Ofﬁce of Inspector General

The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities
on the basis of race, color, national origin, age, disability, and where applicable, sex, marital status,
familial status, parental status, religion, sexual orientation, genetic information, political beliefs, reprisal,
or because all or part of an individual’s income is derived from any public assistance program. (Not
all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for
communication of program information (Braille, large print, audiotape, etc.) should contact USDA’s
TARGET Center at (202) 720-2600 (voice and TDD). To ﬁle a complaint of discrimination, write to USDA,
Director, Ofﬁce of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250-9410, or call
(800) 795-3272 (voice) or (202) 720-6382 (TDD). USDA is an equal opportunity provider and employer.

November 2007
